No. 19–______
IN THE

Supreme Court of the United States
________________________

MICHELE BUCKNER, WARDEN,
SOUTH CENTRAL CORRECTIONAL CENTER,
Petitioner,
v.
ROBERT W. ALLEN,
Respondent.

________________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
VOLUME II
________________________________________
ERIC SCHMITT
Attorney General of Missouri
D. JOHN SAUER
Solicitor General
Counsel of Record
JULIE MARIE BLAKE
Deputy Solicitor General
CAROLINE COULTER
Assistant Attorney General
MIKE SPILLANE
Assistant Attorney General
P. O. Box 899
Jefferson City, MO 65102
(573) 751-8870
John.Sauer@ago.mo.gov
Attorneys for Petitioner

i
TABLE OF CONTENTS
Opinion of the Missouri Court of Appeals granting
habeas relief .............................................................. 1a
Opinion of the Circuit Court of Texas County,
Missouri denying habeas relief ............................. 12a
Order of the Supreme Court of Missouri denying
transfer .................................................................... 17a
Order of the Missouri Court of Appeals denying
rehearing and transfer ........................................... 19a
Mandate of the Missouri Court of Appeals ............ 20a
Motion for transfer filed in the Supreme Court of
Missouri ................................................................... 22a
Motion for rehearing and transfer filed in the
Missouri Court of Appeals ...................................... 33a
Offender’s reply brief in the Missouri Court of
Appeals .................................................................... 44a
Warden’s responsive brief in the Missouri Court of
Appeals .................................................................... 56a
Offender’s brief in the Missouri Court of Appeals
................................................................................. 78a
Warden’s answer in the Missouri Court of Appeals
............................................................................... 102a

ii

Habeas petition in the Missouri Court
of Appeals .............................................................. 116a
Offender’s notice of additional authority
filed in Texas County Circuit Court ..................... 131a
Warden’s suggestions in opposition to
Motion for Judgment on the Pleadings in Texas
County Circuit Court ............................................ 135a
Offender’s Motion for Judgment on
the Pleadings in Texas County Circuit Court ..... 137a
Offender’s reply to response to habeas
Petition in Texas County Circuit Court ............... 144a
Warden’s response to habeas petition in Texas
County Circuit Court ............................................ 150a
Offender’s habeas petition in Texas County Circuit
Court...................................................................... 154a

78a

No. SD35655
____________
MISSOURI COURT OF APPEALS
Southern District

________________________________________
IN RE: ROBERT W. ALLEN,
Petitioner,
vs.
JEFF NORMAN, WARDEN

SOUTH CENTRAL CORRECTIONAL CENTER,
Respondent.
____________________________________________

PETITIONER’S BRIEF
________________________________________
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre

1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Craig.Johnston@mspd.mo.gov

Attorney for Robert W. Allen

79a

INDEX
TABLE OF AUTHORITIES ....................................... 1
JURISDICTIONAL STATEMENT ........................... 4
STATEMENT OF FACTS .......................................... 5
POINT RELIED ON ................................................... 7
ARGUMENT ................................................................ 9
CONCLUSION.......................................................... 19
CERTIFICATE OF COMPLIANCE
AND SERVICE ......................................................... 20
TABLE OF AUTHORITIES
CASES:
Allen v. Norman,
No. 17TE-CC00425 ........................................... 4, 5, 12
Donnell White v. Ronda Pash,
No. 17DK-CC00176) ................................................ 10
Earth Island Inst. v. Union Elc. Co.,
456 S.W.3d 27 (Mo. banc 2015) ................................ 11
Edwards v. Steele,

80a
533 S.W.3 238 (Mo. App. E.D. 2017) ........ 7, 10, 17, 19
Graham v. Florida,
560 U.S. 48 (2010) ..................................................... 12
Hardy Bivens v. Jay Cassady,
No. 16AC-CC00181-01)............................................. 10
Jeffery Scott v. State of Missouri et al.,
No. 16AC-CC00312) .................................................. 10
Miller v. Alabama,
567 U.S._, 132 S.Ct. 2455 (2012) .... 7, 9, 13, 14, 15, 17
Montgomery v. Louisiana,
– U.S. –, 136 S.Ct. 718 (2016).................................. 13
Robin Greathouse v. Jason Lewis,
No. 17MI-CV00672) ................................................... 10
Roper v. Simmons,
543 U.S. 551 (2005) ............................................. 10, 13
Sammie D. Taylor v. Jeff Norman,
No. 17TE-CC00476 .................................... 7, 9, 10, 16
State ex rel. Carr v. Wallace,
527 S.W.3d 55 (Mo. banc 2017) .........................passim
State ex rel. Zinna v. Steele,
301 S.W.3d 510 (Mo. banc 2010) .............................. 11

81a
State v. Allen,
710 S.W.2d 912 (Mo. App. W.D. 1986) .............. 4, 5, 11
State v. Carr,
No. 44R068300181 .................................................... 14
State v. Hart,
404 S.W.3d 232 (Mo. banc 2013) ............ 14, 17, 18, 19
State v. Nathan,
404 S.W.3d 253 (Mo. banc 2013) ......... 7, 9, 16, 17, 18
State v. Olivas,
431 S.W.3d 575 (Mo. App. W.D. 2014) ............. 7, 9, 17
State v. Spencer,
307 S.W.3d 203 (Mo. App. S.D. 2010) ................ 10, 15
Willbanks v. MDOC,
522 S.W. 3d 238 (Mo. banc 2017) ........................ 14, 15
William J. Gephart v. Jay Cassady,
No. 17AC-CC00572) .................................................. 10
CONSTITUTIONAL PROVISIONS:
U.S. Const., Amend VIII . 5, 7, 9, 10, 11, 12, 13, 14, 15
U.S. Const., Amend XIV ................................... 7, 9, 12
Article I, § 21, Mo. Const. ............................ 7, 8, 9, 12

82a
Article V, § 4, Mo. Const. .................................. 4, 8, 10
STATUTES:
§ 565.001, RSMo (1978) .................... 4, 5, 8, 10, 11, 13
§ 565.003, RSMo (1978) ................................ 4, 5, 8, 11
§ 565.004, RSMo (1978) ........................................ 8, 18
§ 565.008, RSMo (1978) .................................. 8, 13, 18
§ 571.015, RSMo (1978) ................................ 4, 5, 8, 11
JURISDICTIONAL STATEMENT
Petitioner was convicted of one count of capital
murder, § 565.001, one count of murder in the first
degree, § 565.003, and one count of armed criminal
action, § 571.015, in Jackson County, Missouri
(Exhibits 1-2). 1 These offenses occurred on January
12, 1984, when Petitioner was 16 years old (Exhibits
1-5).
After a jury trial was held, Petitioner was
sentenced to a mandatory term of life without parole
(LWOP) for 50 years for the capital murder charge,
and sentences of life imprisonment for the other two
counts with the sentences ordered to run
Statutory references are to RSMo 1978 unless otherwise
indicated. Petitioner requests that this Court take judicial
notice of its file and all its pleadings in this case. References to
“Exhibits” are to the Exhibits attached to Petitioner’s Petition
for Writ of Habeas Corpus filed in this Court.

1

83a
consecutively to each other (Exhibits 2-3).
Thereafter, Petitioner filed a direct appeal, which
was affirmed on appeal in State v. Allen, 710 S.W.2d
912 (Mo. App. W.D. 1986) (Exhibit 3).
Petitioner is currently serving his sentence in the
custody of Jeff Norman, Warden, South Central
Correctional Center, Texas County, Missouri.
Jurisdiction and venue of this petition lies with this
Court. Section 477.060. Previously, Petition filed a
writ of habeas corpus in the Texas County Circuit
Court, No. 17TE-CC00425, as required by Rule
91.02(a); that petition was denied. On August 20,
2018, Petitioner filed a Petition for Writ of Habeas
Corpus with this Court. On August 29, 2018, this
Court determined that a writ of habeas corpus
should be issued, ordered Respondent to file an
answer by September 10, 2018, and ordered briefs to
be filed in accordance with Supreme Court rule
84.24(h).
This Court has jurisdiction to “issue and
determine original remedial writs,” including writs of
habeas corpus under Art. V. § 4, subsection 1, of the
Missouri Constitution. This appeal involves no issues
reserved to the exclusive appellate jurisdiction of the
Missouri Supreme Court; thus, jurisdiction properly
lies in this Court. Art. V, § 3 Mo. Const., (amended,
1982); § 477.060, RSMo 2000.
STATEMENT OF FACTS
Petitioner was convicted of one count of capital
murder, § 565.001, one count of murder in the first
degree, § 565.003 (felony murder), and one count of
armed criminal action, § 571.015, in Jackson County,

84a
Missouri (Exhibits 1-2). These offenses occurred on
January 12, 1984, when Petitioner was sixteen years
old (DOB: 8/7/1967) (Exhibits 1-5).
After a jury trial was held, Petitioner was
sentenced to a mandatory term of life without parole
(LWOP) for 50 years for the capital murder charge,
and sentences of life imprisonment for the other two
counts with the sentences ordered to run
consecutively to each other (Exhibits 2-3).
Thereafter, Petitioner filed a direct appeal, which
was affirmed on appeal in State v. Allen, 710 S.W.2d
912 (Mo. App. W.D. 1986) (Exhibit 3).
In 2017, the Supreme Court of Missouri granted
habeas corpus relief in State ex rel. Carry v. Wallace,
527 S.W.3d 55 (Mo. banc 2017), holding that the
Eighth Amendment prohibits a juvenile defendant to
be sentenced to LWOP for 50 years under a
mandatory sentencing scheme that does not afford
the sentencer an opportunity to consider the
juvenile’s age, maturity, limited control over his
environment, the transient characteristics attendant
to youth, or his capacity for rehabilitation. Carr, 527
S.W.3d at 57.
Subsequently, Petitioner, who was serving his
sentence of LWOP for 50 years for capital murder in
the custody of Jeff Norman, Warden, South Central
Correctional Center, Texas County, Missouri, filed a
petition for writ of habeas corpus in the Texas
County Circuit Court, No. 17TE-CC00425; that
petition was denied by that court (Exhibit No. 6).
On August 20, 2018, Petitioner filed a Petition for
Writ of Habeas Corpus with this Court. On August

85a
29, 2018, this Court determined that a writ of habeas
corpus be issued, and ordered Respondent Jeff
Norman to file an answer with this Court on or
before September 10, 2018, which Respondent did,
and this Court ordered briefs to be filed in
accordance with Supreme Court Rule 84.24(h).
Any further facts necessary for the disposition of
this case will be set out in the argument portion of
this brief.
POINT RELIED ON
Petitioner is entitled to a writ of habeas
corpus on his sentence of life without parole
(LWOP) for 50 years for a capital murder
offense he committed when he was 16 years
old, because this sentence is unconstitutional
under State ex rel. Carr v. Wallace, State v.
Nathan (Nathan I). Miller v. Alabama, 2 the 8th
and 14th Amendment to the U.S. Constitution,
and Art. I, § 21 of the Mo. Constitution, as
applied to juveniles, in that Petitioner’s
mandatory sentence of LWOP for 50 years did
not afford the sentencer an opportunity to
consider Petitioner’s age, maturity, limited
control over his environment, the transient
characteristics attendant to youth, or his
capacity for rehabilitation.
The fact that there were two other
sentences ordered to run consecutively to the
State ex rel. Carr. v. Wallace 527 S.W.3d 55 (Mo. banc 2017);
State v. Nathan 404 S.W.3d 253 (Mo. banc 2013) (Nathan I);
Miller v. Alabama, 567 U.S. 460 (2012).
2

86a
unconstitutional capital murder sentence does
not change result, because as illustrated by the
Missouri Supreme Court’s decision in Nathan
I, and as conceded by Respondent in another
case (Taylor v. Norman, cited below), and by
the attorney general’s office in another case
(State v. Olivas, cited below), even if there are
often sentences ordered to run consecutively to
an unconstitutional sentence, the inmate is
still entitled to resentencing as to the
unconstitutional sentence.
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
banc 2017);
State v. Nathan, 404 S.W.3d 253 (Mo. banc 2013);
Miller v. Alabama, 567 U.S._, S.Ct. 2455 (2012);
Edwards v. Steele, 533 S.W.3d 238 (Mo. App. E.D.
2017):
U.S. Const. Amend VIII an XIV;
Article I, § 21, Mo. Const.;
Article V, § 4, Mo. Const.;
§§ 565.001, 565.003, 565.004, 565.008, and
571.015, RSMo (1978).
Argument

87a
Petitioner is entitled to a writ of habeas corpus on
his sentence of life without parole (LWOP) for 50
years for a capital murder offense he committed
when he was 16 years old, because this sentence is
unconstitutional under State ex rel. Carr v.
Wallace, state v. Nathan (Nathan I), Miller v.
Alabama, 3 the 8th and 14th Amendments to the
U.S. Constitution, and Art. I § 21 of the Mo.
Constitution, as applied to juveniles, in that
Petitioner’s mandatory sentence of LWOP for 50
years did not afford the sentencer and opportunity to
consider Petitioner’s age, maturity, limited control
over his environment, the transient characteristics
attendant to youth, or his capacity for rehabilitation.
The fact that there were two other sentences
ordered to run consecutively to the unconstitutional
capital murder sentences does not change result,
because as illustrated by the Missouri Supreme
Court’s decision in Nathan I, and as conceded by
Respondent in another case (Taylor v. Norman, cited
below) and by the attorney general’s office in another
case (State v. Olivas, cited below), even if there are
other sentences ordered to run consecutively to an
unconstitutional sentence, the inmate is still entitled
to resentencing as to the unconstitutional sentence.
-------------------------------♦-----------------------------Introduction:
In State ex rel. Carr v. Wallace, 527 S.W.3d 55, 57
(Mo. banc 2017), the Supreme Court of Missouri held
that the Eighth Amendment prohibits a juvenile
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo. banc 2017);
State v. Nathan, 404 S.W. 3d 253 (Mo. banc 2013) (Nathan I);
Miller v. Alabama, 567 U.S. 460 (2012).
3

88a
defendant to be sentenced to life without the
possibility of parole (LWOP) for 50 years under
mandatory capital murder sentencing scheme that
did not afford the sentencer an opportunity to
consider his age, maturity, limited control over his
environment,
the
transient
characteristics
attendance to youth, or his capacity for
rehabilitation. As a result, Carr was granted habeas
corpus relief.
Petitioner’s case is controlled by Carr. Both Carr
and Petitioner were charged under the former capital
murder statute, section 565.001. Both Carr and
Petitioner received sentences of LWOP for 50 years.
Both Carr and Petitioner were less than 18 years old
at the time the capital murders were committed. 4
This Court is constitutionally bound to follow the
last controlling decision of the Supreme Court of
Missouri. State v. Spencer, 307 S.W.3d 203, 205 (Mo.
App. S.D. 2010). Thus, Petitioner, like Carr, is
entitled to habeas corpus relief, and he must be
resentenced by a jury, unless he waives it, under the
procedure set out in Carr.
Not only is Petitioner similarly situated to the
habeas petitioner in Carr, other than Petitioner,
every other juvenile who received a sentence of
LWOP for 50 years has received habeas corpus relief.
See, Hardy Bivens v. Jay Cassady, No. 16ACCC00181-01, William J. Gephart v. Jay Cassady, No.
17AC-CC00572, Donnell White v. Ronda Pash, No.
For Eighth Amendment purposes, 18 years of age is the
significant age. See, Edwards v. Steele, 533 S.W.3d 238 (Mo.
App. E.D. 2017); Roper v. Simmons, 543 U.S. 551, 574 (2005).
4

89a
17DK-CC00176, Robin Greathouse v. Jason Lewis,
No. 17MI-CV00672, Sammie D. Taylor v. Jeff
Norman, No. 17TE-CC00476, Jeffery Scott v. State of
Missouri et al., No. 16AC-CC00312, and Edwards v.
Steele, 533 S.W.3d 238 (Mo. App. E.D. 2017).
Petitioner should receive the same relief as these
other petitioners.
-------------------------------♦-----------------------------Standard for Obtaining Habeas Relief:
Article V, § 4 of the Missouri Constitution vests
this Court with the authority “to issue and determine
original remedial writs.” Including writs of habeas
corpus. State ex rel. Zinna v. Steele, 301 S.W.3d 510,
513 (Mo. banc 2010). Habeas corpus relief is the final
judicial inquiry into the validity of a criminal
conviction and functions to relieve prisoners whose
convictions violate fundamental fairness. Carr, 527
S.W.3d at 59. A prisoner is entitled to a writ of
habeas corpus when the prisoner is restrained of his
or her liberty in violation of the constitution or laws
of the state or federal government. Id. Questions of
law, including constitutional challenges, are
reviewed de novo. Earth Island Inst. v. Union Elec.
Co., 456 S.W.3d 27, 32 (Mo. banc 2015).
-------------------------------♦-----------------------------Relevant facts:
Petitioner was convicted of one count of capital
murder, § 565.001, one count of murder in the first
degree, § 565.003 (felony murder), and one count of

90a
armed criminal action, § 571.015, in Jackson County,
Missouri (Exhibits 1-2). These offenses occurred on
January 12, 1984, when Petitioner was sixteen years
old (DOB: 8/7/1967) (Exhibits 1-5).
After a jury trial was held, Petitioner was
sentenced to a mandatory term of LWOP for 50 years
for the capital murder charge, and sentences of life
imprisonment for the other two counts with the
sentences ordered to run consecutively to each other
in Jackson County, Missouri (Exhibits 2-3).
Thereafter, Petitioner filed a direct appeal, which
was affirmed on appeal in State v. Allen, 710 S.W.2d
912 (Mo. App. W.D. 1986) (Exhibit 3).
In 2017, the Supreme Court of Missouri granted
habeas corpus relief in Carr, supra, holding that the
Eighth Amendment prohibits a juvenile defendant
from being sentenced to LWOP for 50 years under a
mandatory sentencing scheme that does not afford
the sentencer an opportunity to consider his age,
maturity, limited control over his environment, the
transient characteristics attendant to youth, or his
capacity for rehabilitation, Carr, 527 S.W.3d at 57.
Subsequently, Petitioner, who was serving his
sentence of LWOP for 50 years for capital murder in
the custody of Jeff Norman, Warden, South Central
Correctional Center, Texas County, Missouri, filed a
petition for writ of habeas corpus in the Texas
County Circuit Court, No. 17TE-CC00425; that
petition was denied by that court (Exhibit No. 6).
On August 20, 2018, Petitioner for a Petition for
Writ of Habeas Corpus with this Court. On August
29, 2018, this Court determined that a writ of habeas

91a
corpus be issued, and order Respondent Jeff Norman
to file an answer with this Court on or before
September 10, 2018, which Respondent did, and this
Court ordered briefs to be filed in accordance with
Supreme Court Rule 84.24(h).
-------------------------------♦-----------------------------Constitutional Provisions Involved:
The Eighth Amendment to the U.S. Constitution
provides: “Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishment inflicted.”
Similarly, Article I, § 21 of the Missouri
Constitution provides that cruel and unusual
punishment shall not be inflicted.
The Fourteenth Amendment to the U.S.
constitution provides, “…nor shall any State deprive
any person of life, liberty, or property, without due
process of law; nor deny any person within its
jurisdiction the equal protection of the laws.” 5
-------------------------------♦-----------------------------Petitioner’s sentence of life without parole for
50 years is unconstitutional under State ex rel.
Carr v. Wallace, 527 S.W.3d 55 (Mo. banc 2017):

The Eighth Amendment’s guarantee against cruel and
unusual punishments is made applicable against the States
through the Fourteenth Amendment. Graham v. Florida, 560
U.S. 48, 53 (2010).
5

92a
Jason Carr was charged with three counts of
capital murder under § 565.001. Carr, 527 S.W.3d at
56. At the time of the offenses, Carr was 16 years old.
Id. Also at that time, capital murder could only be
punished by death or LWOP for 50 years. § 565.008.1
Id. at 56-57, 60. 6
A jury convicted Carr of the three counts of
capital murder. Id. at 58. Following the jury’s
verdict, the trial court sentenced him to three
concurrent sentences of LWOP for 50 years. Id. The
court of appeals affirmed his convictions on direct
appeal, and his claim of ineffective assistance of
counsel was also denied. Id.
Carr filed a petition for a writ of habeas corpus in
the Supreme Court of Missouri after Miller v.
Alabama, 567 U.S. 460 (2012). Carr, 527 S.W.3d at
58. Carr contended that his sentences violated the
Eighth Amendment because, following the decision
in Miller, juvenile offenders cannot be sentenced to
LWOP under mandatory sentencing schemes that
preclude consideration of the offender’s youth and
attendant circumstances. Id. at 58-59.
While Carr’s habeas petition was pending, the
Supreme Court of the United States held that
Miller’s substantive rule must be applied
retroactively on collateral review of a juvenile
offender’s
mandatory
sentence
of
LWOP.
Montgomery v. Louisiana, –U.S.–, 136 S.Ct. 718, 736
(2016).
Later, the Supreme Court of the United States invalidated the
death penalty for juveniles in Roper v. Simmons, 543 U.S. 551,
578-79 (2005).
6

93a

Carr had not raised his Eighth Amendment
claim on direct review or in a post-conviction
proceeding. Carr 527 S.W.3d at 59. Nevertheless,
the Supreme Court of Missouri in Carr held that
because Carr was seeking retroactive application
of Miller’s substantive rule of constitutional law
to the facts and circumstances of his case, Carr
had cause for failing to previously raise his
constitutional claims, and he could seek habeas
corpus relief on his claims that his sentences
were imposed in violation of the Eighth
Amendment pursuant to Miller, Id.
Ultimately, the Carr Court held that Miller
controlled because Carr was sentenced to the
harshest penalty other than death available under a
mandatory sentencing scheme that afforded the
sentencer no opportunity to not only consider but
also to give effect to Carr’s age, maturity, limited
control over his environment, the transient
characteristics attendant to youth, or his capacity for
rehabilitation since the only available sentence was
LWOP for 50 years. Id. at 60-62. As a result, Carr’s
sentences were imposed in direct contravention of
the foundational principle that imposition of a state’s
most severe penalties on juvenile offenders cannot
proceed as though they were not children. Id.
The Court granted habeas relief because Carr’s
sentences of LWOP for 50 years violated the Eighth
Amendment, and he was entitled to be resentenced
so his youth and other attendant circumstances
surrounding his offense could be taken into
consideration to ensure he would not be forced to

94a
serve a disproportionate sentence in violation of the
Eighth Amendment. Id. In doing so, the Court
ordered that Carr must be resentenced under the
procedures set out in State v. Hart, 404 S.W.3d 232
(Mo. banc 2013). Carr, 527 S.W.3d at 62-63. 7
Petitioner’s case is controlled by Carr. Petitioner,
like Carr, was less than 18 years old at the time the
capital murder was committed, and he received the
same sentence for capital murder that Carr received
for his capital offenses – LWOP for 50 years. Thus,
Petitioner, like Carr is entitled to habeas corpus
relief, and he must be resentenced under the
procedures set out in Carr and Hart. Carr, 527
S.W.3d at 62-63.
Willbanks v. MDOC is not controlling
Respondent’s Answer (Answer) pleads that “[t]his
Court should not expand the Supreme Court’s Eighth
Amendment jurisprudence to create a new category
of juvenile violent criminals eligible for early parole.”
(Answer, pg. 1). Petitioner is not asking this Court to
expand anything; Petitioner is requesting that this
Court follow the Supreme Court’s opinion in Carr,
supra. This Court is constitutionally bound to follow
the last controlling decision of the Supreme Court of
Missouri. State v. Spencer, 307 S.W.3d 203, 205 (Mo.
App. S.D. 2010).
In
support
of
Respondent’s
argument,
Respondent, following the lead of the Texas County
After remand, Carr was sentenced to three concurrent 50-year
prison sentences for the lesser included offense of second-degree
murder, which was permissible under the procedure in Hart,
supra. State v. Carr, No. 44R068300181.
7

95a
Circuit Court in this case, erroneously relies upon
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. banc 2017) in arguing that
Petitioner should be denied relief. Willbanks is not
controlling. Instead, Carr, which was decided on the
same day as Willbanks, is controlling.
Willbanks does not control because, although it
involved consecutive sentences, none of those
sentences individually were as lengthy as the capital
murder sentence in Carr or in Petitioner’s case; in
other words, none of the sentences involved were
unconstitutional. The most Willbanks was required
to serve on any one sentence was 25.5 years-almost
half than involved for capital murder in Carr and
Petitioner’s cases. The same sentence that Carr
received on his three capital murder sentences
(LWOP for 50 years on each sentence) is the same
sentence that Petitioner received on his capital
murder sentence and thus that sentence is
unconstitutional under Carr. Carr held that Miller
controlled that case because Carr was sentenced to
the harshest penalty for capital murder other than
death available under a mandatory sentencing
scheme. Carr, 527 S.W.3d at 60. Petitioner received
the same mandatory sentence for his capital murder
charge; thus, Carr, not Willbanks, controls.
Willbanks, in contrast to Carr, merely holds that
a habeas petitioner cannot, with consecutive
sentences, add the minimum parole eligibility of each
sentence when making an Eighth Amendment
violation claim. In other words, consecutive lengthy
sentences for multiple crimes in excess of a juvenile’s
life expectancy does not violate the Eighth
Amendment when none of the sentences standing
alone is unconstitutional. Willbanks did not hold, as

96a
contended by Respondent, that an unconstitutional
sentence, such as LWOP for 50 years, can be
converted into a constitutional one as long as
another sentence is ordered to run consecutively to
the unconstitutional sentence.
Further, what the circuit court ruled, and
Respondent’s position in this case argues, is contrary
to Sammie D. Taylor v. Jeff Norman, No. 17TECC00476, where the habeas court granted habeas
relief to Taylor in the same count, Texas County,
Missouri, on the same issue with the same
Respondent (Jeff Norman).
Taylor had been sentenced to a mandatory term
of LWOP for 50 years for capital murder, and he was
also sentenced in the same case to life sentences for
three other counts (first-degree assault and two
counts of first-degree robbery), with the sentences for
the assault count to run consecutively to the capital
murder count, and the sentences for the robbery
counts to run concurrently to the other two counts.
Respondent’s Norman in Taylor, who is the same
Respondent as in this case, filed a Response wherein
it conceded that under Carr, Taylor was entitled to
habeas corpus relief as to the capital murder count.
Respondent Norman also filed a proposed
Conditional Writ of Habeas Corpus, which was later
signed by the habeas court, Wherein Respondent
agreed that, as to the capital murder count, Taylor
should be ordered discharged from his LWOP for 50year sentence for capital murder within 180 days of
that order unless the sentencing court held a new
sentence proceeding that comported with the
procedures outlined by the Supreme Court of

97a
Missouri in Carr, but Respondent’s custody of Taylor
as to Taylor’s other non-capital murder sentences
were not to be affected by that order. Petitioner
should have gotten the same relief that Taylor
received.
Respondent argues, contrary to its position in
Taylor, that the “analysis is different when, as here,
a court has chosen to impose consecutive, additional
sentences,” and that “[i]t does not matter whether
one part of the sentence would be impermissible
standing alone.” (Answer. pg. 3).
Respondent’s argument is not only contrary to its
position in Taylor, but it is also contrary to what
happened in State v. Nathan, 404 S.W.3d 253 (Mo.
banc 2013) (Nathan I) (reversing a count of firstdegree murder because the imposition of mandatory
LWOP sentence constituted cruel and unusual
punishment under Miller).
In Nathan I, the trial court sentenced Nathan to
LWOP for first-degree murder, and it also sentenced
Nathan to five life sentences (with parole) and five
15-year sentences for non-homicide crimes, all of
which were to be served consecutively to each other
and to the sentence for first-degree murder; it also
sentenced Nathan to eleven life sentences (with
parole) for armed criminal action, with these
sentences to be served concurrently with the other
sentences and to each other. Nathan I, 404 S.W.3d at
256-57.
Although Nathan’s LWOP sentence had 10 other
sentences ordered to run consecutively to it, the
Supreme Court of Missouri reversed the first-degree

98a
murder sentence and remanded the case for Nathan
to be re-sentenced as to the first-degree murder
conviction only. Id. at 270-71. Thus, contrary to
Respondent’s position in this case, if one part of a
sentence is impermissible standing alone, the
defendant is entitled to be resentenced as to the
unconstitutional sentence even if there are other
sentences running consecutively to it. In accord,
State v. Olivas, 431 S.W.3d 575 (Mo. App. W.D.
2014), where the defendant had been given
consecutive sentences of LWOP and life for
convictions for first-degree murder and armed
criminal action, respectively, yet the court of appeals,
with the attorney general’s office conceding error,
reversed and remanded for resentencing because the
LWOP sentence was unconstitutional under Miller
and Hart.
Conclusion
This Court should enter an order granting habeas
corpus relief to Petitioner, vacate Petitioner’s
conviction and sentence for capital murder, and
remand the case for resentencing in Jackson County,
Missouri, under Carr, supra, and Hart, supra. Also
see, Edwards, supra (habeas relief granted, and
Petitioner is entitled to be resentenced in accordance
with the procedure outline in Carr and Hart).
Petitioner, like Carr, is entitled to habeas corpus
relief, and he must be resentenced under the
procedures set out in Carr and Hart. Carr, 527
S.W.3d at 62-63.
If, after considering all the
circumstances, the sentencer is not persuaded that a
sentence of LWOP for 50 years is just appropriate,
Petitioner cannot receive that sentence. Id. Instead,

99a
the trial court must declare § 565.008 void as applied
to Petitioner on the ground that it does not provide a
constitutionally valid punishment for his offense. Id.
If § 565.008 is void, the trial court must vacate the
jury’s verdict finding Petitioner guilty of capital
murder and enter a new finding that he is guilty of
murder in the second degree under § 565.004. Id.
After the court enters the finding that Petitioner is
guilty of murder in the second degree, the sentencer
must determine his sentence based on the statutory
range applicable to this offense, which under §
565.008.2, RSMo 1978, is “imprisonment by the
division of corrections for a term of not less than ten
years.” Id.
Additionally, if, on remand, the trial court is
required to vacate the sentencer’s verdict that
Petitioner is guilty of capital murder on the ground
that § 565.008 is void, the trial court also must
vacate the jury’s finding that Petitioner was guilty of
the armed criminal action charge predicated on his
being found guilty of capital murder. Nathan I, 404
S.W.3d at 271, n. 11. The trial court then must enter
a new finding that Petitioner is guilty of armed
criminal action in connection with his guilt on the
second-degree murder charge. Id. Petitioner then
will be sentenced for the new armed criminal action
charge at the same time and in the same manner as
he is sentenced for the new second-degree murder
charge. Id.
CONCLUSION
This Court should enter an order granting habeas
corpus relief to Petitioner, vacate Petitioner’s
conviction and sentence for capital murder, and

100a
remand the case for resentencing in Jackson County,
Missouri, under Carr, supra, and Hart, supra. Also
see, Edwards, supra (habeas relief granted, and
Petitioner is entitled to be resentenced in accordance
with the procedure outline in Carr and Hart).
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MoBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnson@mspd.mo.gov
CERTIFICATE OF COMPLIANCE
AND SERVICE
I, Craig A. Johnston, hereby certify: The attached
brief complies with the limitations contained in Rule
84.06(b). The brief was completed using Microsoft
Word 2010, in Times New Roman size 13 point font,
and includes the information required by Rule 55.03.
According to the word-count function of Microsoft
Word, excluding the cover page, the signature block,
this certificate of compliance and service, and
appendix, the brief contains 4,550 words, which does
not exceed the 31,000 words allowed for an
appellant’s brief. And, on this 5th day of October,

101a
2018, electronic copies of Petitioner’s Brief, and
Petitioner’s Brief Appendix, were sent through the
Missouri e-Filing System to opposing counsel of
record.
/s/ Craig A. Johnston
Craig A. Johnston, MoBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnson@mspd.mo.gov

102a
IN THE MISSOURI COURT OF APPEALS
SOUTHERN DISTRICT
ROBERT ALLEN,
Appellant,
vs.
JEFF NORMAN,
Respondent.

)
)
)
) No. SD35655
)
)
)
)
)

ANSWER TO PETITION FOR HABEAS
CORPUS AND RETURN TO PRELIMINARY
WRIT
This Court should not expand the Supreme
Court’s Eighth Amendment jurisprudence to create a
new category of juvenile violent criminals eligible for
early parole. Here, Allen received a constitutional
set of sentences for his criminal activity, and so, the
Court should deny the petition for writ of habeas
corpus.
Statement of Custody and Parties
Robert W. Allen resides at the South Central
Correctional Center in Licking, Missouri, because of
the sentence and judgment of the Circuit Court of
Jackson County. A jury found Allen guilty of capital
murder, first-degree murder, and armed criminal
action for which the court imposed consecutive
sentences of life imprisonment without probation or

103a
parole for fifty years, life imprisonment, and life
imprisonment. State v. Allen, 710 S.W.2d 912, 913
(Mo. App. W.D. 1986). Warden Jeff Norman is the
respondent.
Statement of Exhibits
Respondent’s Exhibit 1 is an offender search
result showing Allen’s place of confinement.
Respondent’s Exhibit 2 is a Department of
Corrections record showing Allen’s sentence
structure.
Respondent’s Exhibit 3 is Allen’s judgment of
conviction and sentence.
Summary of Argument
This petition concerns a juvenile offender who
was sentenced to multiple, consecutive terms in
prison for committing multiple crimes. The
sentencing court imposed a sentence of life without
parole for fifty years, followed by two consecutive
terms of life imprisonment, for a series of crimes in
which Allen and an accomplice brutally murdered an
elderly couple to steal their social security benefits.
In Willbanks and Nathan, the Missouri Supreme
Court held that, under the Supreme Court’s
precedents, the Eighth Amendment does not prohibit
consecutive sentences even if, under the aggregate
sentence, the juvenile will not be eligible for parole in
his natural life. Here, Allen committed murder and
other violent crimes as a teenager, and he was

104a
sentenced to several consecutive terms in prison.
Standing alone, or imposed concurrently with other
sentences, a mandatory sentence of life without
parole for fifty years would violate the Eighth
Amendment for a single offense for an offender under
age 18 under the Missouri Supreme Court’s Carr
decision. But the analysis is different when, as here,
a court has chosen to impose consecutive, additional
sentences.
In that circumstance, no individual
sentence is analyzed on its own for whether it would
be impermissible. It does not matter whether one
part of the sentence would be impermissible standing
alone. Instead, the aggregate sentence is analyzed
under the framework in Willbanks.
In Willbanks, the Missouri Supreme Court upheld
consecutive sentences that, added together, totaled
life plus 355 years, with no collective parole
eligibility during a normal human life expectancy.
In order for a punishment categorically to violate the
Eighth Amendment for a class of offenders there
must be a national consensus that the punishment
violates the Eighth Amendment, and there must be a
no penological justification that supports the
punishment, making it disproportionate to the crime.
Allen, who has the burden of persuasion, has
presented no argument of a national consensus
against the punishment he received, and penological
justifications for a punishment such as this, when a
court has imposed consecutive sentences for multiple
violent felonies, is apparent. The denial of the writ is
supported by the Missouri Supreme Court decision in
Willbanks and by the Carr decision, in which the
Missouri Supreme Court distinguished Carr because

105a
the three life without parole for fifty year sentences
were concurrent.
Analysis
The Eighth Amendment prohibits a State from
inflicting cruel and unusual punishments. U.S.
Const, amend, viii. The Supreme Court has
interpreted this Amendment to prohibit the death
penalty for juvenile offenders, Roper v. Simmons, 543
U.S. 551 (2005); to prohibit a mandatory sentence of
life in prison without parole for a juvenile offender
convicted of a homicide offense, Miller v. Alabama,
567 U.S. 460 (2012); and to prohibit a sentence of life
in prison without parole for a juvenile offender
convicted of a non-homicide offense, Graham v.
Florida, 560 U.S. 48 (2010).
But the U.S. Supreme Court has never
interpreted the Eighth Amendment to preclude
consecutive sentences for multiple crimes that result
in an aggregate term of imprisonment rendering the
juvenile offender eligible for parole in old age or even
past a normal life expectancy. Out of respect for the
textual limits of the Eighth Amendment and the
instructions of past precedents, this Court should not
do so now. Unlike the sentences that the Supreme
Court held unconstitutional in Miller and Graham,
Allen did not receive sentence of life in prison
without the possibility of parole for an individual
crime or a solely receive a sentence of life without
parole for fifty years for an individual crime.
Instead, he received several consecutive sentences,
corresponding to the number and severity of his
crimes, with an opportunity for parole in old age.

106a
I.

Because this case involves a categorical
ban on a punishment for class of
individuals the proper analysis is guided
by Graham v. Florida.

In Miller v. Alabama, 567 U.S. 460 (2012), the
United States Supreme Court held that the
mandatory imposition of a sentence of life without
parole for murder, on offender who was under 18 at
the time of the murder, violates the ban on cruel and
unusual punishment in the Eighth Amendment to
the United States Constitution. The United States
Supreme Court in Montgomery v. Louisiana, 136 S.
Ct. 718 (2016) held that Miller was a substantive
categorical ban on a type of punishment for a class of
offenders and was therefore retroactive to cases on
collateral review.
The Missouri cases of State ex rel. Carr v.
Wallace, 527 S.W.3d 55 (Mo. 2017), Willbanks v.
Missouri Department of Corrections, 522 S.W.3d 238
(2017), and State v. Nathan, 522 S.W.3d 881, 885
(Mo. 2017) have direct roots in Miller. In Nathan
and Willbanks, the Missouri Supreme Court held
that the Eighth Amendment does not prohibit the
State from sentencing a juvenile offender who
committed multiple crimes to multiple consecutive
terms of imprisonment, with the effect that the
offender is eligible for parole in old age. Neither
Miller nor Graham affects sentences other than
those of a single sentence of life without parole given
for a single offense. The Missouri cases of Carr and
Willbanks, like Miller, therefore are controlled by the
analysis in cases such as Graham v. Florida, 560
U.S. 48 (2010) that set out the requirements for a

107a
punishment to be categorically banned for a class of
offenders.
II.

Graham v. Florida holds that a
categorical ban on a punishment for a
class of offenders requires both a
national consensus and the lack of
penological
justification
for
the
punishment.
In Graham v. Florida, 560 U.S. 48 (2010) the
United States Supreme Court set out the
elements that establish that a punishment
categorically violates the Eighth Amendment for
a class of individuals across a broad range of
crimes. The Court held that the first element is
the existence of a national consensus that the
punishment violates evolving standards of
decency. Id. at 62.
The Court conducted two tests for national
consensus. First, the Court counted the number
of legislatures that authorize the punishment,
and second the Court counted the number of
times the punishment was imposed, the number
of states that imposed the punishment, and the
punishment’s distribution within the group of
states that imposed it. Id. at 62–67.
The Court found that although 37 states,
the District of Columbia, and the United States
all theoretically permit life without parole
sentences for non-homicide offenders under age
18, only 11 states have imposed the sentence,
only 123 offenders were serving such a sentence,
and 77 of those are in the single state of Florida.

108a
Id. at 65–67. From this evidence the Court
concluded that the sentencing practice is
exceedingly rare and that a national consensus
has developed against it. The Court held that
because a national consensus existed against the
imposition of the penalty, the Court then had the
duty to analyze the culpability of the offenders in
light of their crimes and characteristics and the
severity of the punishment to determine if the
punishment for the class of individuals violates
the Eighth Amendment. Id. at 67.
The Graham Court found that because there
was a national consensus against the imposition
of juvenile life without parole sentences for nonhomicide offenses, the Court must do its own
evaluation of whether the penalty violates the
Eighth Amendment. Id. at 67. The court held
that offenders under age 18, who did not kill or
intend to kill, the category the court was
evaluating, and which excludes Allen, have twice
diminished moral culpability compared to adult
murderers. Id. at 67. And the Court found that
life without parole is the most severe noncapital
punishment and is particularly severe for a
juvenile. Id. at 70–71. Bearing those findings in
mind, the Court evaluated the penalty for
proportionality by determining if it was justified
by the penological reasons of retribution,
deterrence, incapacitation, or rehabilitation,
because a sentence without a legitimate
penological
justification
is
necessarily
disproportionate. Id. at 71–74.
The Court found that the retribution of a life
without parole sentence on a juvenile non-

109a
homicide offender is disproportionate because of
the severity of the punishment and the lessened
culpability of juveniles. Id. at 71–72. The Court
found that deterrence was not applicable because
juveniles often make impetuous and ill-considered
decisions and are less likely to consider a
potential punishment, particularly when it is
rarely imposed. Id. at 72. The Court found
incapacitation does not justify the punishment
because some offenders’ criminal actions may be
explained by transient immaturity as opposed to
incorrigibility. Id. at 72–73. Finally, the Court
found that rehabilitation does not justify the
sentence, as life without parole by its nature
makes rehabilitation irrelevant by abandoning
return to society. Id. at 74. The Court held that
the traditional reasons for punishment do not
justify the penalty and that therefore the penalty
is cruel and unusual punishment. Id. at 74–75.
But this analysis is necessarily different for a
person who has committed multiple violent
felonies for which a court has determined
consecutive sentences are appropriate. Under
Willbanks and Nathan, the Eighth Amendment
does not prohibit consecutive sentences even if,
under the aggregate sentence, the juvenile will
not be eligible for parole in his natural life. And
here, Allen committed murder and other violent
crimes as a teenager, and he was sentenced to
several consecutive terms in prison. In this
circumstance, no individual part of his sentence is
analyzed on its own for whether it would be
impermissible. Instead, the aggregate sentence is
analyzed under the framework in Graham and
Willbanks, and under these precedents, it
remains constitutional.

110a
III.

Allen does not plead or prove either a
national consensus or a lack of any
penological
justification
for
his
punishment, and the penalty imposed in
his case is permissible under Graham
and its progeny.

Allen does not plead that there is a national
consensus against more severe punishment for
offenders like himself who have committed
multiple violent felonies, in his case two brutal
murders and an armed criminal action. Nor does
he show that no penological purpose supports
longer parole ineligibility for offenders who
commit multiple violent felonies under age 18,
and are therefore determined by judge to be
worthy of consecutive sentences, even if one of the
sentences standing alone might run afoul of
Miller.
And he cannot plausibly do so. Retribution,
deterrence, and incapacitation are all logically
served by increasing parole ineligibility for each
offense committed, in a way they are not in
Graham, which banned a life without parole
sentence for a single offense. And limiting parole
ineligibility to a set period, no matter how many
violent felonies an offender commits, makes
sentencing arbitrary as opposed to suited to the
offender.
When an offender commits two or three, or
ten violent felonies, he is more culpable than an
offender who commits only one.
Thus, an
increase in parole ineligibility makes retributive
sense.
A court recognizes this by imposing

111a
consecutive penalties, as opposed to the default
under Missouri law of concurrent sentences.
Similarly, an offender who commits a violent
felony has an incentive not to commit another, or
another ten, if consecutive sentences create a
potential increase in parole ineligibility. But if
there is no real additional sanction, no matter
how many violent felonies an offender commits
after a certain point, then there is no incentive
not to commit an unlimited number of felonies.
So increases in parole ineligibility when
consecutive sentences are imposed rationally
serve both specific deterrence and general
deterrence.
One can reasonably infer that an offender who
commits multiple violent felonies may need to be
kept separated from society longer than an
offender who committed only one.
Rational
incapacitation thus is served by a sentence
structure like Allen’s.
All these justifications distinguish this case
from Graham. And the Eighth Amendment ban
on cruel and unusual punishment flows from the
idea that punishment for crimes should be
graduated and proportioned. Miller v. Alabama,
132 S. Ct. 2455, 2463 (2012). What Allen really
asks for is a one size fits all formula that would
arbitrarily treat the less culpable like the more
culpable. That result would be contrary to the
idea of graduated and proportioned punishment
that is at the core of the Eighth Amendment.

112a
IV.

The Missouri precedents of Willbanks
and Carr support the conclusion that
Allen’s punishment is constitutional.

The trial court in Willbanks sentenced the
offender, who was under age 18 at the time of his
offenses, which arose from one continuous course of
conduct, to seven consecutive terms of imprisonment
that totaled life imprisonment plus 355 years.
Willbanks 522 S.W.3d at 240. Willbanks will not
become parole eligible during a normal human life
expectancy. Id. at 241 n.4.
The Missouri Supreme Court found the aggregate
sentence and parole ineligibility period in Willbanks
to be constitutional. Id. at 241–46. A key part of the
Missouri Supreme Court’s analysis was that
consideration of legitimate goals of penal sanctions
such as retribution, deterrence, and incapacitation
are different where a sentencing court has
affirmatively
chosen
to
impose
consecutive
sentences, as opposed to allowing the default result
of concurrent sentences to occur. Id. at 243. That is a
key distinction from the offender in Carr, who
received concurrent sentences. In Carr, the Missouri
Supreme Court explicitly distinguished Willbanks by
noting that Willbanks involved consecutive sentences
but all three of Carr’s life without parole for fifty
year sentences ran concurrently. Carr 527 S.W.3d at
61 n.7.
Here, Allen and an accomplice committed a
particularly brutal home invasion double murder in
an attempt to steal the money from social security
checks of an elderly couple. State v. Allen, 710
S.W.2d 912, 913–14 (Mo. App. E.D. 1986). The trial

113a
court imposed three consecutive life sentences for the
two murders and one armed criminal action of which
the jury convicted the offender. Id. at 913. As in
Willbanks, the consideration of penal sanctions here
is different than in a case of a sentence for a single
offense or concurrent sentences. As in Willbanks,
here there is a legitimate penological justification for
the sentence structure that is permissible under the
Eighth Amendment.
A sentencing regime that effectively prohibits
aggregate sentences for juvenile offenders past a
fixed point of parole eligibility would undermine the
State’s critical interest in marginal deterrence
against the commission of multiple crimes by a
single offender. “Nothing in the Constitution forbids
marginal deterrence for extra crimes; if the sentence
for [one crime] were concurrent with the sentence for
[another crime], then there would be neither
deterrence nor punishment for the extra danger
created.” United States v. Buffman, 464 F.App’x 548,
549 (7th Cir. 2012). If a juvenile knows that, once
guilty of a single serious offense, he is guaranteed to
be eligible for release on the same date, no matter
what further crimes he commits, he has no incentive
to curtail his behavior and abstain from other
crimes.
This concern for marginal deterrence is highly
relevant for offenders, like Allen, who commit
multiple serious acts of violence during a single
criminal transaction. If the punishment for that
criminal transaction will be effectively the same, the
offender has no incentive to avoid escalating the
transaction by adding, e.g., a shooting to a
carjacking, or a rape to a home invasion. In other

114a
words, “if the punishment for robbery were the same
as that for murder, then robbers would have an
incentive to murder any witnesses to their
robberies.” United States v. Reibel, 688 F.3d 868, 871
(7th Cir. 2012).
Conclusion
This Court should deny the petition for habeas
corpus with prejudice without further judicial
proceedings.
Respectfully submitted
JOSHUA D. HAWLEY
Attorney General
/s/ Michael J. Spillane
MICHAEL J. SPILLANE
Assistant Attorney General
Missouri Bar No. 40704
P.O. Box 899
Jefferson City, MO 65102
Phone:(573) 751-1307
Facsimile:(573)751-3825 FAX
Mike.spillane@ago.mo.gov
Attorneys for Respondent

115a
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing was electronically filed by using the
Case.Net system this 10th day of September 2018.
Counsel for Allen should be served electronically
with a copy.
/s/ Michael J. Spillane
MICHAEL J. SPILLANE
Assistant Attorney General

116a
IN THE MISSOURI COURT OF APPEALS
SOUTHERN DISTRICT
In Re ROBERT ALLEN,

)
)
Petitioner,
)
) Case No._________
vs.
) Texas Co. No
) 17TE-CC00425
JEFF NORMAN, Warden )
South Central
)
Correctional Center
)
Respondent.
PETITION FOR A WRIT OF HABEAS CORPUS
AND SUGGESTIONS IN SUPPORT OF THE
PETITION
COMES NOW, petitioner, Robert W. Allen, a
Missouri prisoner in respondent’s custody, and
petitions this Court, pursuant to Rule 91, for a Writ
of Habeas Corpus vacating his conviction for the
offense of capital murder and his sentence of life
without the possibility of parole LWOP for 50 years.
Petitioner is similarly situated to the habeas
petitioner in State ex rel. Carr v. Wallace, 527 S.W.3d
55 (Mo. banc 2017), and he is entitled to the same
relief as Mr. Carr – a remand for resentencing that
comports with the procedures outline by the Missouri
Supreme Court in Carr and State v. Hart, 404
S.W.3d 232 (Mo. banc 2013).
Other than Mr. Allen, every other juvenile who
received a sentence of LWOP for 50 years has

117a
received habeas corpus relief. See, Hardy Bivens v.
Jay Cassady, No. 16AC-CC00181-01, William J.
Gephardt v. Jay Cassady, No. 17AC-CC00572,
Donnell White v. Ronda Pash, No. 17DK-CC00176,
Robin Greathouse v. Jason Lewis, No. 17MICV00672, Sammie D. Taylor v. Jeff Norman, No.
17TE-CC00476, Jeffery Scott v. State of Missouri et.
al., No. 16AC-CC00312, and Edwards v. Steele, 533
S.W.3d 238 (Mo. App. E.D. 2017). In support of this
petition, Petitioner states as follows:
I.

Jurisdictional Statement

Petitioner is currently serving his sentence of
LWOP for 50 years for capital murder in the custody
of Jeff Norman, Warden, South Central Correctional
Center in Licking, Texas County, Missouri.
Jurisdiction and venue of this petition lies with this
court. Section 477.060. Previously, Petition filed a
writ of habeas corpus in the Texas County Circuit
Court No. 17TE-CC00425 as required by Rule
91.02(a); that petition was denied by that court.
Pursuant to Rule 91.04(a)(4), petitioner also states
that no petition for relief raising the issues brought
herein has been sought in any higher court.
II. Procedural background
Petitioner was charged with, and convicted of, one
count of capital murder, § 565.001, RSMo 1978
(victim, Rachel Hudnall), one count of murder in the
first degree § 565.050, RSMo 1978 (victim Maurice
Hudnall), and one count of armed criminal action, §
571.015, RSMo 1978, in Jackson County, Missouri
(Exhibits 1–2). These shooting offenses occurred on

118a
January 12, 1984, when Petitioner was sixteen years
old (DOB: 8/7/1967) (Exhibits 1–5).
After a jury trial was held, Petitioner was
sentenced to a mandatory term of LWOP for 50 years
for the capital murder charge, and sentences of life
imprisonment for the other two counts with the
sentences ordered to run consecutively to each other
in Jackson County, Missouri (Exhibits 2–3).
Thereafter, Petitioner filed a direct appeal, which
was affirmed on appeal in State v. Allen, 710 S.W.2d
912 (Mo. App. W.D. 1986) (Exhibit 3).
Because Missouri’s former capital murder statute
made no exception for juvenile offenders, Petitioner’s
mandatory sentence of LWOP for 50 years for that
offense, without consideration of Petitioner’s youth
and attendant circumstances, is invalid and
unconstitutional in violation of the Eighth
Amendment in light of the recent decisions by the
Supreme Court of the United State in Miller v.
Alabama, 567 U.S. 460 (2012) and Montgomery v.
Louisiana, –– U.S. ––, 136 S.Ct. 718, 736 (2016), as
well as the decision by the Supreme Court of
Missouri in Carr. Also see, Edwards v. Steele, supra.
(habeas relief granted; Petitioner’s sentence violated
the Eighth Amendment in accordance with Carr and
Miller; and Petitioner was entitled to be
resentenced).
Thus, Petitioner’s conviction and
sentence for capital murder should be overturned
and Petitioner should receive a resentencing hearing
in Jackson County, Missouri pursuant to Carr,
supra, and Hart, supra.
III.

This case is controlled by State ex rel.
Carr v. Wallace.

119a
Jason Carr was convicted of three counts of
capital murder under § 565.001, RSMo 1978.
Carr, 527 S.W.3d at 56. At the time of the
offenses, Mr. Carr was 16 years old. Id. Also at
the time, capital murder could only by punished
by death or a LWOP for 50 years. § 565.008.1,
RSMo 1978. Id. at 56–57, 60. The state did not
seek the death penalty. Id at 58. Therefore, if
convicted, the only eligible sentence Mr. Carr
could receive LWOP for 50 years. 1 Id.
A jury convicted Mr. Carr of three counts of
capital murder. Id. Following the jury’s verdict,
the trial court sentenced him to three concurrent
sentences of LWOP for 50 years. Id. The court of
appeals affirmed his convictions on direct appeal,
and his claim of ineffective assistance of counsel
was also denied. Id.
Mr. Carr filed a petition for a writ of habeas
corpus in the Supreme Court of Missouri after the
Supreme Court of the United States’ decision in
Miller. Id. Mr. Carr contended that his sentences
violated the Eighth Amendment because,
following the decision in Miller, juvenile offenders
cannot be sentenced to life without parole
pursuant to mandatory sentencing schemes that
preclude consideration of the offender’s youth and
attendant’s circumstances. Id. at 58–59.
The alternative punishment available under the capital
murder statute was LWOP for 50 years, thereby making it the
second harshest penalty that could be imposed on a homicide
offender. § 565.008. Had the death penalty been sought and
imposed, this penalty would have been invalidated following
Roper v. Simmons, 543 U.S. 551, 578–79 (2005) (Eighth
Amendment prohibits the imposition of the death penalty on
defendants who commit murder at age 17 or younger).
1

120a
While Mr. Carr’s habeas petition was pending,
the Supreme Court of the United States held that
Miller’s substantive rule must be applied
retroactively on collateral review of a juvenile
offender’s mandatory sentence of life without
parole. Montgomery, –– U.S. ––, 136 S.Ct. at 736.
Although prisoners are generally required to raise
constitutional claims on direct appeal or in a postconviction proceeding, a defendant has cause for
failing to raise such claims where a new
constitutional rule may be applied retroactively
on collateral review. State ex rel. Simmons v.
Roper, 112 S.W.3d 397, 401 (Mo. banc 2003).
Mr. Carr did not raise his Eighth Amendment
claims on direct review or in a post-conviction
proceeding.
Carr,
527
S.W.3d
at
59.
Nevertheless, the Supreme Court of Missouri in
Carr, following Montgomery, held that because
Mr. Carr was seeking retroactive application of
Miller’s substantive rule of constitutional law to
the facts and circumstances of his case, Mr. Carr
had cause for failing to previously raise his
constitutional claims, and he could seek habeas
corpus relief on his claims that his sentences were
imposed in violation of the Eighth Amendment
pursuant to Miller. Id. at 59.
Ultimately, the Supreme Court of Missouri
held that Miller controlled because Mr. Carr was
sentenced to the harshest penalty other than
death available under a mandatory sentencing
scheme that afforded the sentence no opportunity
to consider his age, maturity, limited control over
his environment, the transient characteristics
attendant to youth, or his capacity for

121a
rehabilitation. Id. at 60–62. As a result, Mr.
Carr’s sentences were imposed in direct
contravention of the foundation principle that
imposition of a state’s most severe penalties on
juvenile offenders cannot proceed as though they
were not children. Id.
Consequently, the Court held that Mr. Carr’s
sentences of LWOP for 50 years violated the
Eighth Amendment, and that he must be
resentenced so his youth and other attendant
circumstances surrounding his offense can be
taken into consideration to ensure he will not be
forced to serve a disproportionate sentence in
violation of the Eighth Amendment. Id. The
Court granted habeas relief. Id.
In doing so, the Court ordered that Mr. Carr
must be resentenced under the procedures set out
in Hart. Id. at 62–63. First, the sentencer must
consider whether Mr. Carr’s sentences of LWOP
for 50 years are just and appropriate considering
his youth, maturity, and other Miller factors. Id.
If Mr. Carr elects to have a jury resentence him,
the jury must be instructed properly that it may
not assess and declare his punishment for capital
murder should be LWOP for 50 years unless it is
persuaded beyond a reasonable doubt that this
sentence is just and appropriate under all
circumstances.
Id.
The jury must also be
instructed, before it begins its deliberations, that
if it is not persuaded that LWOP for 50 years is a
just and appropriate sentence under all
circumstances of the case, additional instructions
concerning applicable punishments will be given
at that time. Id.

122a
If, after considering all the circumstances, the
sentence finds Mr. Carr qualifies for LWOP for 50
years, then that is the only authorized statutory
sentence. Id. If, however, the sentencer is not
persuaded that this sentence is just and
appropriate, Mr. Carr cannot receive that
sentence. Instead, the trial court must declare §
565.008 void as applied to Mr. Carr on the ground
that it does not provide a constitutionally valid
punishment for his offense. Id.
If § 565.008 is void, the trial court must vacate
the jury’s verdict finding Mr. Carr guilty of
capital murder and enter a new finding that he is
guilty of murder in the second degree under §
565.004. Id. After the trial court enters the
finding that Mr. Carr is guilty of murder in the
second degree, the sentencer must determine his
sentence based on the statutory range applicable
to these offenses.
Id. Under § 565.008.2,
“[p]ersons convicted of murder in the second
degree shall be punished by imprisonment by the
division of corrections for a term on not less than
ten years.” If Mr. Carr elects to have a jury
resentence him, the jury will be provided with
additional instructions regarding sentencing for
murder in the second degree. Id. These additional
instructions should not be submitted to the
sentencer––unless and until the sentencer has
deliberated and rejected sentencing the juvenile
offender to LWOP for 50 years for capital murder.
Id. Mr. Carr would then be resentenced for second
degree murder within the statutorily authorized
range of punishments for that offense. Id.

123a
Petitioner’s case is controlled by Carr.
Petitioner, like Mr. Carr, was less than eighteen
years old at the time the capital murder was
committed. 2 Thus, Petitioner, like Mr. Carr, is
entitled to habeas corpus relief, and he must be
resentenced so his youth and other attendant
circumstances surrounding his offense can be
taken into consideration to ensure he will not be
forced to serve a disproportionate sentence in
violation of the Eighth Amendment.
If, after considering all the circumstances, the
sentencer is not persuaded that a sentence of
LWOP for 50 years is just and appropriate,
Petitioner cannot receive that sentence. Instead,
the trial court must declare § 565.008 void as
applied to Petitioner on the ground that it does
not provide a constitutionally valid punishment
for his offense. If § 565.008 is void, the trial court
must vacate the jury’s verdict finding Petitioner
guilty of capital murder and enter a new finding
that he is guilty of murder in the second degree
under § 565.004. After the court enters the
finding that Petitioner is guilty of murder in the
second degree, the sentencer must determine his
sentence based on the statutory range applicable
to this offense, which under § 565.008.2, RSMo
1978, is “imprisonment by the division of
corrections for a term of not less than ten years.”
Additionally, if, on remand, the trial court is
required to vacate the sentencer’s verdict that
Petitioner is guilty of first-degree murder on the
ground that § 565.020 is void, the trial court also
For Eighth Amendment purposes, eighteen years of age is the
significant age. See, Edwards, supra; Roper, 543 U.S. at 574.

2

124a
must vacate the jury’s finding that Petitioner was
guilty of the armed criminal action charge
predicated on his being found guilty of firstdegree murder. State v. Nathan, 404 S.W.3d 253,
271, n. 11 (Mo. banc 2013). The trial court then
must enter a new finding that Petitioner is guilty
of armed criminal action in connection with his
guilt on the second-degree murder charge. Id.
Petitioner then will be sentenced for the new
armed criminal action charge at the same time
and in the same manner as he is sentenced for
the new second-degree murder charge. Id.
IV. Willbanks v. MDOC is not controlling
The Texas County Circuit Court in this case
erroneously relied upon Willbanks v. Missouri
Department of Corrections, 522 S.W.3d 238 (Mo.
banc 2017) in denying relief (Exhibit 6).
Willbanks is not controlling. Instead, Carr, which
was decided on the same day as Willbanks, is
controlling.
The Texas County Circuit Court ruled that:
Though Carr prohibited the imposition of
three sentences of life without parole of at
least fifty years, the sentencer in that case had
elected to run the sentences concurrent,
reflecting a decision by the sentencer to reduce
the sentences to the minimum allowed by law.
The sentencer was unable to further reduce
the sentences with regard to the mitigating
factors of youth because of the mandatory
minimum required by the sentencing statute.
In contrast, in the instant cases, the sentencer

125a
pronounced that the three sentences of life
without parole for fifty years, life with no
mandatory minimum, and life with a three
year mandatory minimum, shall run
consecutive without one another.
By
necessity, then, the sentencer found after
considering all relevant facts that the
mandatory minimum for capital punishment
of no parole for 50 years was not enough
punishment.
This ruling is legally, and factually, incorrect
because the initial sentence in both Carr and Mr.
Allen’s cases were juries, and those sentencers
were unable to recommend lower sentences than
LWOP for 50 years for the capital murder counts
based on the mitigating factors of youth because
of the mandatory minimum required by the
capital murder statute. See Carr, 527 S.W.3d at
61 (“Yet the jury was afforded no opportunity to
consider his age, maturity, limited control over
his environment, the transient characteristics
attendant to youth, or his capacity for
rehabilitation when assessing whether the
punishment of life without the possibility of
parole for 50 years proportionately punished him
as a juvenile offender,” emphasis added). That the
trial courts in both Carr and Mr. Allen’s cases,
after jury verdicts, later had options to order
other sentences concurrent or consecutive to an
unconstitutional sentence cannot convert an
unconstitutional sentence to a constitutional one
based on the fact that the judge wants the
defendant to serve other sentences consecutively. 3
Additionally, as in Carr, there was no evidence that judge
likewise considered the mitigating factors of youth, the

3

126a

Willbanks does not control because it involved
non-homicide offenses, and thus was governed by
Graham v. Florida, 560 U.S. 48 (2010). It also
involved seven consecutive sentences, none of
which individually were as lengthy as the capital
murder sentence in Carr or in Petitioner’s case.
The most Willbanks was required to serve on any
one sentence was 25.5 years – almost half than
involved for capital murder in Carr and
Petitioner’s case.
In contrast, Carr, is a homicide case, and was
thus governed by Miller v. Alabama, 567 U.S.
Similarly,
(2012) rather than Graham. 4
Petitioner Allen’s case also is a homicide case and
is thus governed by Carr not Willbanks. Further,
the same sentence that Mr. Carr received on his
three capital murder sentences (LWOP for 50
years on each sentence) is the same sentence that
Petitioner received on his capital murder
sentence
and
thus
that
sentence
is
5
unconstitutional under Carr.
Carr held that
Miller controlled that case because Mr. Carr was
sentenced to the harshest penalty for capital
murder other than death available under a
mandatory sentencing scheme.
Carr v., 527
S.W.3d at 60. Mr. Allen received the same
attendant characteristics of youth, the circumstances of the
offense or the potential for rehabilitation when finally
pronouncing sentence. Carr, 527 S.W.3d at 62–63.
4 Graham was not even cited in the Carr opinion.
5 Mr. Carr’s three concurrent sentences for capital murder had
a lower mandatory minimum sentence (parole ineligibility for
50 years until Mr. Carr was 66 years old) than Petitioner, who
was the same age as Mr. Carr when Mr. Carr committed his
capital offenses.

127a
mandatory sentence for his capital murder
charge; thus, Carr controls.
Willbanks, in contrast, merely held that a
habeas petitioner could not, with consecutive
sentences, add the minimum parole eligibility
when making an Eighth Amendment violation
claim.
In other words, consecutive lengthy
sentences for multiple crimes in excess of a
juvenile’s life expectancy does not violate the
Eighth Amendment when none of the sentences
standing alone was unconstitutional. Willbanks
did not hold that an unconstitutional sentence,
such as LWOP for 50 years, could be converted
into a constitutional one if another sentence were
ordered
to
run
consecutively
to
the
unconstitutional
sentence,
requiring
the
defendant to serve even more time in prison.
Further, what the circuit court ruled, and
Respondent’s position in this case is contrary to
Sammie D. Taylor v. Jeff Norman, No. 17TECC00476, where the habeas court, the Hon. John
D. Beger, granted habeas relief to Taylor in Texas
County, Missouri, on the same issue, with the
same Respondent (Jeff Norman), who was
represented by the same attorney.
Taylor had been sentenced to a mandatory
term of LWOP for fifty years for capital murder
and he was also sentenced in the same case to life
sentences for three other counts (first-degree
assault and two counts of first-degree robbery),
with the sentence for the assault count to run
consecutively to the capital murder count, and the

128a
sentences for the robbery counts
concurrently to the other two counts.

to

run

Respondent Norman in Taylor v. Norman,
which is the same Respondent as in this case,
filed a Response wherein it conceded that under
Carr, Taylor was entitled to habeas corpus relief
as to the capital murder count. Respondent
Norman also filed a proposed Conditional Writ of
Habeas Corpus, which was later signed by Judge
Beger, wherein Respondent agreed that as to the
capital murder count that Taylor should be
ordered discharged from his LWOP for 50-years
sentence for capital murder within 180 days of
that order unless the sentencing court held a new
sentencing proceeding that comported with the
procedures outlined by the Missouri Supreme
Court in Carr v. Wallace, but Respondent’s
custody of Taylor as to Taylor’s other non-capital
murder sentences were not to be affected by that
order. Mr. Allen should have gotten the same
relief that Mr. Taylor received.
V. Conclusion
WHEREFORE, for all the foregoing reasons,
Petitioner respectfully requests that this Court
require Respondent to show cause as to why
habeas relief should not be granted and
thereafter, after a thorough review of the facts
and law, enter an order granting a writ of habeas
corpus vacating Petitioner’s conviction and
sentence for capital murder and remand the case
for resentencing in Jackson County, Missouri,
under Carr, supra, and Hart, supra.
See,
Edwards v. Steele, supra (habeas relief granted,

129a
and Petitioner is entitled to be resentenced in
accordance with the procedure outline in Carr
and Hart).
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

130a
CERTIFICATE OF SERVICE
I hereby certify that on this 20th day of August,
2018, this Petition for a Writ of Habeas Corpus and
Suggestions in Support of the Petition was
electronically filed via case.net through the Missouri
e-Filing system and a true and correct copy was
mailed to Stephen D. Hawke, the Office of the
Attorney General, 207 W. High Street, P.O. Box 899,
Jefferson
City,
Missouri
65102,
stephen.hawke@ago.mo.gov,
representing
Respondent, and to Respondent Jeff Norman,
Warden, South Central Correctional Center, 255
West Highway 32, Licking, MO 65542.
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191

131a
IN THE CIRCUIT COURT OF TEXAS COUNTY,
MISSOURI
In Re ROBERT ALLEN,

)
)
Petitioner,
)
) Case No.
vs.
) 17TE-CC00425
)
JEFF NORMAN, Warden )
South Central
)
Correctional Center
)
Respondent.
PETITIONER’S NOTICE OF SUPPLEMENTAL
AUTHORITY IN SUPPORT OF MOTION FOR
JUDGMENT ON THE PLEADINGS
COMES NOW, Petitioner, Robert Allen, and
moves this Court to issue a writ of habeas corpus
Rule 91, based upon the pleadings in this case in
light of the Supreme court of Missouri’s decision in
State ex rel. Carr v. Wallace, 527 S.W.3d 55 (Mo.
banc 2017), for the reasons previously set forth, and
in light of the following supplemental authority that
was filed after the prior filings in this case.
On April 6, 2018, in Sammie D. Taylor v. Jeff
Norman, No. 17TE-CC00476, the habeas court, the
Hon. John D. Beger, granted habeas relief to Taylor
in Texas County, Missouri, on the same issue, with
the same Respondent (Jeff Norman), who was
represented by the same attorney.

132a
Taylor had been sentence to a mandatory term of
life imprisonment without probation or parole for
fifty years for capital murder, and he was also
sentenced in the same case to life sentences for three
other counts (first-degree assault and two counts of
first-degree robbery), with the sentence for the
assault count to run consecutively to the capital
murder count, and the sentences for the robbery
counts to run concurrently to the other two counts.
Respondent Norman in Taylor v. Norman, which
is the same Respondent as in this case, filed a
Response wherein it conceded that under Carr v.
Wallace, Taylor was entitled to habeas corpus relief
as to the capital murder count. Respondent Norman
also filed a proposed Conditional Writ of Habeas
Corpus, which was later signed by Judge Beger,
wherein Respondent agreed that as to the capital
murder count that Taylor should be ordered
discharged from his life without parole for fifty-years
sentence for capital murder within 180 days of that
order unless the sentencing court held a new
sentencing proceeding that comported with the
procedures outlined by the Missouri Supreme Court
in Carr v. Wallace, but Respondent’s custody of
Taylor as to Taylor’s other non-capital murder
sentences were not affected by that order. 1
Respondent’s concession of habeas relief in Taylor
v. Norman was correct; it is also inconsistent with
Respondent’s prior position in this case. This Court
should follow Taylor v. Norman and sustain the
petition for a writ of habeas corpus, and order the
Both the Response and the Conditional Writ of Habeas Corpus
that were filed in Taylor v. Norman are being filed with this
motion.

1

133a
Respondent to discharge Petitioner Robert Allen
within 180 days of its order unless the sentencing
court holds a new sentencing proceeding that
comports with the procedures outlined by our
Missouri Supreme Court in Carr v. Wallace.
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email:Craig.Johnston@mspd.mo.gov
CERTIFICATE OF SERVICE
I hereby certify that on the 25th day of May, 2018,
this Petitioner’s Notice of Supplemental Authority in
Support of Motion for Judgment on the Pleadings
was electronically filed via Case.net through the
Missouri e-Filing System and thereby served to
counsel for Respondent.

134a
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

135a
IN THE CIRCUIT COURT OF TEXAS COUNTY
STATE OF MISSOURI
ROBERT ALLEN,
Petitioner,
vs.
JEFF NORMAN,
Respondent.

)
)
)
)Case No.
) 17TE-CC00425
)
)
)
)

SUGGESTIONS IN OPPOSITION TO MOTION
FOR JUDGMENT ON THE PLEADINGS
In his Motion for Judgment on the Pleadings,
Allen repeats the same arguments made in the
original petition and the Reply.
Similarly,
respondent will repeat the argument made in the
Response, albeit in an abbreviated fashion.
Conglomerate sentences with lengthy mandatory
minimum sentences are lawful under the Missouri
Supreme Court’s decision in Willbanks v. Missouri
Department of Corrections, 522 S.W.3d 238 (Mo. banc
2017). In Willbanks the court upheld conglomerate
felony sentences for a juvenile offender with parole
ineligibility until the offender is approximately
eighty five years old.
Id. at 240–1. Allen’s
conglomerate felony sentences for the multiple
felonies render him ineligible for parole until he is
approximately seventy years old. Because Allen’s
sentence has a mandatory minimum that is

136a
substantially less than one upheld in Willbanks, the
Court should deny Allen relief.
Respectfully submitted
JOSHUA D. HAWLEY
Attorney General
\s\ Stephen D. Hawke
STEPHEN D. HAWKE
Assistant Attorney General
Missouri Bar No. 35242
P.O. Box 899
Jefferson City, MO 65102
(573) 751-3321
(573) 751-3825 FAX
Stephen.hawke@ago.mo.gov
Attorneys for Respondent

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
forgoing was electronically filed by using the
Case.Net system and thereby served to counsel for
Petitioner, this 20 day of March, 2018, to:
\s\ Stephen D. Hawke
Stephen D. Hawke
Assistant Attorney General

137a
IN THE CIRCUIT COURT OF TEXAS COUNTY,
MISSOURI
In Re ROBERT W. ALLEN)
)
Petitioner,
)
) Case No.
v.
) 17TE-CC00425
)
JEFF NORMAN, Warden )
South Central
)
Correctional Center
)
Respondent.
)
PETITIONER’S MOTION FOR JUDGMENT ON
THE PLEADINGS
COMES NOW, Petitioner, Robert Allen, and
moves this Court, under Rules 55.27(b) and 91.17, to
issue a writ of habeas corpus, Rule 91, based upon
the pleadings in this case in light on the Supreme
Court of Missouri’s decision in State ex. rel v.
Wallace, 527 S.W.3d 55 (Mo. banc 2017). 1
Petitioner was charged with, and convicted of, one
count of capital murder, § 565.001 RSMo 1978, one
count of murder in the first degree, § 565.050 RSMo
1978, and one count of armed criminal action, §
571.0.15 RSMo 1978, in Jackson County, Missouri.
These shooting offenses occurred on January 12,
1984, when Petitioner was 16 years old (DOB:
8/7/1967). Petitioner was sentenced to a mandatory
On January 29, 2018, Petitioner previously filed a proposed
order granting a conditional writ of habeas corpus.

1

138a
term of life imprisonment without probation or
parole for fifty years for the capital murder charge,
and sentences of life imprisonment for the other two
counts with the sentences ordered to run
consecutively to each other. Petitioner is currently
serving these sentences in the custody of Jeff
Norman, Warden, South Central Correctional Center
in Licking, Missouri.
Petitioner’s case is controlled by Carr. Mr. Carr
was convicted of three counts of capital murder.
Carr, 527 S.W.3d at 56. At the time of the offenses,
Mr. Carr was 16 years old. Id. Also at the time,
capital murder could only be punished by death or a
life sentence without the possibility of parole for 50
years. Id. at 56–58. Following a jury trial, the court
sentenced him to three concurrent sentences of life
imprisonment without the eligibility for parole for 50
years. Id.
Subsequently, after the Supreme court of the
United States decision in Miller v. Alabama, 567
U.S. 460 (2012), Mr. Carr filed a petition for a writ of
habeas corpus in the Supreme Court of Missouri. Id.
Mr. Carr contended that, under Miller, his sentences
violated the Eighth Amendment.
The Supreme Court of Missouri granted habeas
relief and held that Miller controlled because Mr.
Carr was sentenced to the harshest penalty other
than death available under a mandatory sentencing
scheme that afforded the sentencer no opportunity to
consider his age, maturity, limited control over his
environment, the transient characteristics attendant
to youth, or his capacity for rehabilitation. Id. at 60–
62. The Court held that Mr. Carr’s sentences of life

139a
without the possibility of parole for 50 years violated
the Eighth Amendment, and that he must be
resentenced so his youth and other attendant
circumstances surrounding his offense could be
taken into consideration to ensure he would not be
forced to serve a disproportionate sentence in
violation of the Eighth Amendment. Id.
Petitioner’s case is comparable to Carr.
Petitioner, like Mr. Carr, was 16 years old at the
time the capital murder was committed. For the
capital murder offense, Petitioner, like Mr. Carr, was
sentenced to the harshest penalty other than death
available under a mandatory sentencing scheme that
afforded the sentencer no opportunity to consider his
age, maturity, limited control over his environment,
the transient characteristics attendant to youth, or
his capacity for rehabilitation.
Petitioner’s
mandatory sentence of life without parole for fifty
years for that offense, without consideration of
Petitioner’s youth and attendant circumstances, is
invalid and unconstitutional in violation of the
Eighth Amendment in light of the decisions in Carr
and Miller.
Habeas courts in Missouri have granted corpus
petitions on the Carr issue in Hardy Bivens v. Jay
Cassidy, No. 16AC-CC00181-01, William J. Gephart
v. Jay Cassady, No. 17AC-CC00572, Donnell White v.
Ronda Pash, No. 17DK-CC00176, Robin Greathouse
v. Jason Lewis, No. 17MI-CV00672, and Jeffery Scott
v. State of Missouri et. al., No. 16AC-CC00312. Also,
the Eastern District Court of Appeals granted
habeas corpus relief on the Carr issue in Edwards v.
Steele, 533 S.W.3d 238 (Mo. App. E.D. 2017).

140a
Respondent asserted in its response that the
petition for writ of habeas corpus is meritless
because “the case is controlled by the Missouri
Supreme Court decision in Willbanks v. Missouri
Department of Corrections, 522 S.W.3d 238 (Mo. banc
2017).” (Response, pg. 2). As noted in Petitioner’s
Reply, Respondent is wrong.
Willbanks is not
controlling. Instead, Carr, which was decided on the
same day as Willbanks, is controlling.
Willbanks involved non-homicide offenses, and
thus was governed by Graham v. Florida, 560 U.S.
48 (2010).
It also involved seven consecutive
sentences, none of which individually were as
lengthy as the capital murder sentence in Carr or in
Petitioner’s case.
In contrast, Carr and Petitioner’s cases are
homicide cases, and are thus governed by Miller
rather than Graham or Willbanks. Further, the
same sentence that Mr. Carr received on his three
capital murder sentences (life without parole for 50
years on each sentence) is the same sentence that
Petitioner received on his capital murder sentence
and thus that sentence is unconstitutional under
Carr.
Respondent’s argument placed almost sole weight
on the fact that Mr. Allen’s sentence in this case “has
a mandatory minimum that appears substantially
less than Willbanks.” (Response, pg. 3). But that
clearly is not controlling because Carr and Willbanks
were decided on the same day, and Mr. Carr’s three
concurrent sentences for capital murder had a lower
mandatory minimum sentence (parole ineligibility
for 50 years until Mr. Carr was 66 years old) than

141a
either Mr. Willbanks (parole ineligibility until age
85) or Petitioner, who was the same age Mr. Carr
when Mr. Carr committed his capital offenses. Mr.
Allen’s parole eligibility on the capital murder charge
is the same as Mr. Carr’s.
Although Mr. Carr was eligible for parole at an
earlier age than Mr. Willbanks (66 versus 85), a fact
that had to be clear to the Supreme Court since it
decided both cases on the same day, that fact was not
controlling and Mr. Carr’s sentences were held to be
unconstitutional. This is because Mr. Willbanks’s
total parole eligibility date was the result of adding
the minimum parole eligibility for seven consecutive
sentences. In Willbanks, the most Willbanks was
required to serve on any one sentence was 25.5
years.
Willbanks merely held that a habeas
petitioner could not, with consecutive sentences, add
the minimum parole eligibility dates when making
an Eighth Amendment violation claim. In other
words, consecutive lengthy sentences for multiple
crimes in excess of a juvenile’s life expectancy does
not violate the Eighth Amendment when none of the
sentences standing alone was unconstitutional.
Carr held that Miller controlled that case because
Mr. Carr was sentenced to the harshest penalty for
capital murder other than death available under
mandatory sentencing scheme. Carr v, 527 S.W.3d
at 60. Mr. Allen received the same mandatory
sentence for his capital murder charge; thus Carr
controls. The fact that Mr. Allen has other sentences
running consecutively to his unconstitutional
sentence for capital murder does not make change
the fact that his sentence of life without parole for 50
years is unconstitutional under Carr. Cf. State v.

142a
Olivas, 431 S.W.3d 575 (Mo. banc 2014) (sentence of
life imprisonment without possibility of probation or
parole for first-degree murder, imposed without
individualized consideration, violated the Eighth
Amendment even though there was a consecutive
sentence of life imprisonment without the possibility
of parole for armed criminal action; defendant to be
re-sentenced on both offenses).
This court should sustain the petition for a writ of
habeas corpus, and order Respondent to discharge
Petitioner Robert Allen within 180 days of its order
unless the sentencing court holds a new sentencing
proceeding that comports with the procedures by our
Missouri Supreme Court.
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email:Craig.Johnston@mspd.mo.gov

143a
CERTIFICATE OF SERVICE
I hereby certify on this 13th day of March, 2018, this
Petitioner’s Motion for Judgment on the Pleadings
was electronically filed via Case.net through the
Missouri e-Filing System and thereby served to
counsel for Respondent.
/s/ Craig A. Johnston
Craig A. Johnson, MOBar #32191
Assistant State Public Defender
Woodrail Center
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

144a
IN THE CIRCUIT COURT OF TEXAS COUNTY,
MISSOURI
In Re ROBERT ALLEN,

)
)
Petitioner,
)
) Case No.
v.
) 17TE-CC00425
)
JEFF NORMAN, Warden )
South Central
)
Correctional Center
)
Respondent.
PETITIONER’S REPLY TO RESPONSE TO
ORDER TO SHOW CAUSE

COMES NOW, Petitioner, Robert Allen, and in
reply to Respondent’s Response to Order to Show
Cause, states as follows:
Respondent asserts that the petition for writ of
habeas corpus is meritless because “the case is
controlled by the Missouri Supreme Court decision in
Willbanks v. Missouri Department of Corrections, 522
S.W.3d 238 (Mo. banc 2017).” (Response, pg. 2).
Respondent is wrong.
Willbanks is not
controlling. Instead, State ex. rel Carr v. Wallace,
527 S.W. 3d 55 (Mo. banc 2017), which was decided
on the same day as Willbanks is controlling.
Willbanks involved non-homicide offenses, and
thus was governed by Graham v. Florida, 560 U.S.

145a
48 (2010).
It also involved seven consecutive
sentences, none of which individually were as
lengthy as the capital murder sentence in Carr or in
Petitioner’s case.
In contrast, Carr, is a homicide case, and was
thus govered by Miller v. Alabama, 567 U.S. (2012)
rather than Graham. 1 Similarly, Petitioner Allen’s
case also is a homicide case and is thus governed by
Carr not Willbanks. Further, the same sentence that
Mr. Carr received on his three capital murder
sentences (life without parole for 50 years on each
sentence) is the same sentence that Petitioner
received on his capital murder sentence and thus
that sentence is unconstitutional under Carr 2.
Respondent’s argument places almost sole weight
on the fact that the Mr. Allen’s sentence in this case
“has a mandatory minimum that appears
substantially less than Willbanks. (Response, pg. 3).
But that clearly is not controlling because Carr and
Willbanks were decided on the same day, and Mr.
Carr’s three concurrent sentences for capital murder
had a lower mandatory minimum sentence (parole
Graham was not even cited in the Carr opinion
Additionally, if, on remand, as a result of Carr, the trial court
is required to vacate the sentecer’s verdict that Mr. Allen is
guilty of first-degree murder on the ground that section 565.020
is void, and resentence him as to second-degree murder, the
trial court also must vacate the jury’s finding that Mr. Allen
was guilty of the armed criminal action charge predicated on
his being found guilty of first-degree murder. State v. Nathan,
404 S.W.3d 253, 271, n.11 (Mo. banc 2013). The trial court then
must enter a new finding that Mr. Allen is guilty of armed
criminal action in connection with his guilt on the seconddegree murder charge. Id. Mr. Allen then will be sentenced for
the new armed criminal action charge at the same time as he is
sentenced for the new second-degree murder charge. Id.
1

2

146a
ineligibility for 50 years until Mr. Carr was 66 years
old) than either Mr. Willbanks (parole ineligibility
until age 85) or Petitioner, who was the same age as
Mr. Carr when Mr. Carr committed his capital
offenses. Respondent has not explained why Mr.
Carr was entitled to relief and Mr. Allen is not, even
though Mr. Allen’s parole eligibility on the capital
murder charge is the same as Mr. Carr’s.
Although Mr. Carr was eligible for parole at an
earlier age than Mr. Willbanks (66 versus 85), a fact
that had to be clear to the Supreme Court since it
decided both cases on the same day, that fact was not
controlling and Mr. Carr’s sentences were held to be
unconstitutional. This is because Mr. Willbanks’s
total parole eligibility date was the result of adding
the minimum parole eligibility for seven consecutive
sentences.
Respondent points out that Willbanks involved
sentences of 15 years, life imprisonment, 20 years, 20
years, and three terms of 100 years (Response, pg. 2).
The first four of these sentences were dangerous
felonies, § 556.061(8), and because an offender is
required to serve a minimum prison term of 85% of
any sentence for a dangerous felony, see § 558.019.3,
85% of those sentences are: 12.75 years, 25.5 years,
17 years, and 17 years. Mr. Willbanks’s three
consecutive 100-year prison sentences for armed
criminal action are not dangerous offenses, and
sentences for non-dangerous felonies that aggregate
over 75 years are calculated at 75 years. §
558.019.4(2), and offenders serving sentences for
non-dangerous felonies totaling 45 years or more are

147a
eligible for parole after 15 years.
2.010(1)(E). 3

14 CSR 80-

Thus, in Willbanks, the most Willbanks was
required to serve on any one sentence was 25.5
years. 4
Willbanks merely held that a habeas
petitioner could not, with consecutive sentences, add
the minimum parole eligibility when making an
Eighth Amendment violation claim. In other words,
consecutive lengthy sentences for multiple crimes in
excess of a juvenile’s life expectancy does not violate
the Eighth Amendment when none of the sentences
standing alone was unconstitutional.
Mr. Carr, in contrast, was not parole eligible for
50 years as to each capital offense sentence, which
ran concurrent with each other for a total of 50 years
parole ineligibility. Carr held that Miller controlled
that case because Mr. Carr was sentenced to the
harshest penalty for capital murder other than death
available under a mandatory sentencing scheme.
Carr v., 527 S.W.3d at 60. Mr. Allen received the
same mandatory sentence for his capital murder
charge; thus, Carr controls.
Habeas courts in Missouri have granted habeas
corpus petitions and entered judgments on the Carr
issue in Hardy Bivens v. Jay Cassady, No. 16ACCC00181-01, William J. Gephart v. Jay Cassady, No.
DOC determined that Mr. Willbanks was elibible for parole on
the dangerous felonies when he is 70 years old, under the
geriatric provision of § 558.019.2(3), and then he had to serve
15 more years for the armed criminal action charges.
4 It is 25.5 years because 85% of life with parole for parole
purposes is treated as 30 years, § 558.019.4(1), and 85% of 30 is
25.5
3

148a
17AC-CC00572, and Donnell White v. Ronda Pash,
No. 17DK-CC00176. Also, the Eastern District Court
of Appeals has granted habeas corpus relief on the
Carr issue in Edwards v. Steele, 533 S.W.3d 238 (Mo.
App. E.D. 2017).
Thus, Petitioner’s Petition for a Writ of Habeas
Corpus is controlled by the Supreme Court’s decision
in Carr, and Mr. Allen is entitled to habeas relief.
This Court should sustain the petition for a writ of
habeas corpus, and order Respondent to discharge
Petitioner Robert Allen within 180 days of its order
unless the sentencing court holds a new sentencing
proceeding that comports with the procedures
outlined by our Missouri Supreme Court. 5

Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBAR #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

5

Petitioner has filed a proposed order granting relief.

149a
CERTIFICATE OF SERVICE
I hereby certify that on this 30th day of January,
2018, this Petitioner’s Response and Request for
Expedited Review was electronically filed via
Case.net through the Missouri e-Filing System and
thereby served to counsel for Respondent.
/s/ Craig A. Johnston
___________________________
Craig A. Johnston, MOBAR #32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov

150a
IN THE CIRCUIT COURT OF TEXAS COUNTY
STATE OF MISSOURI
ROBERT ALLEN,
Petitioner,
v.
JEFF NORMAN,
Respondent.

)
)
)
) Case No.
) 17TE-CC00425
)
)
)
)

RESPONSE TO ORDER TO SHOW CAUSE WHY
A WRIT OF HABEAS CORPUS SHOULD NOT
BE GRANTED
Because Allen has received a constitutional group
of sentences for his criminal activity, the Court
should deny the petition for writ of habeas corpus.
Statement of Custody and Parties
Robert W. Allen resides at the South Central
Correctional Center in Licking, Missouri, due to the
sentence and judgment of the Jackson County
Circuit Court. A jury found Allen guilty of capital
murder, first-degree murder and armed criminal
action for which he received consecutive sentences of
life imprisonment without probation or parole for
fifty years, life imprisonment, and life imprisonment.
Allen serves these sentences. Warden Jeff Norman
is the respondent. Missouri Supreme Court Rules
91.01, .04, .07.

151a
Statement of Merits
Allen contends that his sentence violates the
Eighth Amendment because he was less than
eighteen when he murdered (Petition, p.2, citing
Miller v. Alabama, 132 S. Ct. 2455 (2012)). Allen
contends that he is entitled to relief under Carr v.
Wallace, 527 S.W.3d 55 (Mo. banc 2017). Due to
Allen’s consecutive sentences, the case is controlled
by the Missouri Supreme Court decision in Willbanks
v. Missouri Department of Corrections, 522 S.W.3d
238 (Mo. banc 2017). The petition is meritless.
In Willbanks, a seventeen-year-old offender
received consecutive sentences for kidnapping, firstdegree assault, two counts of first-degree robbery
and three counts of armed criminal action. After
conviction, the trial court sentenced him fifteen
years, life imprisonment, twenty years, twenty years,
and three terms of one hundred years’ imprisonment.
Due to the mandatory minimums for these
sentences, the offender would not become parole
eligible until he is approximately eighty five years
old.
Id. at 240-1. Because of the consecutive
sentences for the multiple crimes, the offender’s
Eighth Amendment rights were not violated. “The
Supreme Court has never held that consecutive
lengthy sentences for multiple crimes in excess of a
juvenile’s life expectancy is the functional equivalent
of life without parole . . .Without direction from the
Supreme Court to the contrary, this Court should
continue to enforce its current mandatory minimum
parole statutes and regulations by declining to
extend Graham.” Id. at 246.

152a
In the present case, Allen’s sentences also have
mandatory minimums. The sentence for capital
murder is life without parole for fifty years. Phrased
another way, there is a mandatory minimum of fifty
years for this sentence. The life sentence for firstdegree murder does not have a mandatory minimum.
The life sentence for armed criminal action has a
three year mandatory minimum. Section 571.015.1,
RSMo. Because the trial court ordered the sentences
to run consecutively, the mandatory minimums also
run consecutively.
Edger v. Missouri Board of
Probation and Parole, 307 S.W.3d 718 (Mo. App.
W.D. 2010). As a result of his crimes, Allen has
sentences with mandatory minimums that total over
fifty-three years. This conglomerate sentence is
proper under Willbanks. Indeed, the sentence is this
case has a mandatory minimum that appears
substantially less than Willbanks.
Because Allen’s sentences are proper under
Willbanks, the Court should deny the petition.
Respectfully submitted
JOSHUA D. HAWLEY
Attorney General
\s\ Stephen D. Hawke
STEPHEN D. HAWKE
AssistantAttorney General
Missouri Bar No. 35242
P.O. Box 899
Jefferson City, MO 65102
(573) 751-3321

153a
(573) 751-3825 FAX
stephen.hawke@ago.mo.gov
Attorneys for Respondent
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing was electronically filed using the Missouri
E-Filing system and thereby served to counsel for
Petitioner, this 26th day of January, 2018.
\s\ Stephen D. Hawke
Stephen D. Hawke
Assistant Attorney General

154a
IN THE CIRCUIT COURT OF TEXAS COUNTY,
MISSOURI
)
)
Petitioner,
)
)
v.
) Case No._
)
JEFF NORMAN, Warden.
)
South Central Correctional Center, )

In Re ROBERT W. ALLEN,

PETITION FOR A WRIT OF HABEAS CORPUS
COMES NOW petitioner, Robert W. Allen, a
Missouri prisoner in respondent’s custody, and
petitions this Court, pursuant to Rule 91, for a Writ
of Habeas Corpus vacating his conviction for the
offense of capital murder and his sentence of life
without the possibility of parole for fifty years.
Petitioner is similarly situated to the habeas
petitioner in State ex rel. Carr v. Wallace, No. SC
93487, 2017 WL 2952314 (Mo. July 11, 2017), reh’g
denied (Oct. 5, 2017), and he’s entitled to the same
relief as Mr. Carr – a remand for resentencing. In
support of this petition, Petitioner states as follows:
I. Jurisdictional Statement
Petitioner is currently serving his sentence of life
without parole for fifty years for capital murder in
the custody of Jeff Norman, Warden, South Central
Correctional
Center
in
Licking,
Missouri.
Jurisdiction and venue of this petition lies with this
Court pursuant to Rule 91.02(a). Pursuant to Rule
91.04(a)(4), petitioner also states that no petition for

155a
relief raising the issues brought herein has been
sought in any higher court.
II. Procedural background
Petitioner was charged with, and convicted of, one
count of capital murder, § 565.001 RSMo 1978
(victim, Rachel Hudnall), one count of murder in the
first degree, § 565.050 RSMo 1978 (victim Maurice
Hudnall), and one count of armed criminal action, §
571.015 RSMo 1978, in Jackson County, Missouri
(Exhibits 1-2). These shootings offenses occurred on
January 12, 1984, when Petitioner was sixteen years
old (DOB: 8/7/1967) (Exhibits 1-4).
On April 18, 1985, Petitioner was sentenced to a
mandatory term of life imprisonment without
probation or parole for fifty years for the capital
murder charge, and sentences of life imprisonment
for the other two counts with the sentences ordered
to run consecutively to each other in Jackson County,
Missouri (Exhibits 2-3). Thereafter, Petitioner filed a
direct appeal, which was affirmed on appeal in State
v. Allen, 710 S.W.2d 912 (1986) (Exhibit 3).
Because Missouri’s former capital murder statute
made no exception for juvenile offenders, Petitioner’s
mandatory sentence of life without parole for fifty
years for that offense, without consideration of
Petitioner’s youth and attendant circumstances, is
invalid and unconstitutional in violation of the
Eighth Amendment in light of the recent decisions by
the Supreme Court of the United States in Miller v.
Alabama, 567 U.S. 460 (2012) and Montgomery v.
Louisiana, – U.S. –, 136 S.Ct. 718, 736 (2016), as
well as the decision by the Supreme Court of

156a
Missouri in Carr. Also see, Edwards v. Steele, No.
ED105946 (Mo. App. E.D. November 7, 2017)
(habeas relief granted; Petitioner’s sentence violates
the Eighth Amendment pursuant to Carr and Miller,
and Petitioner is entitled to be resentenced in
accordance with the procedure outline in Carr and
State v. Hart, 404 S.W.3d 232 (Mo. banc 2013)).
Thus, Petitioner’s conviction and sentence for capital
murder should be overturned and Petitioner should
receive a resentencing hearing in Jackson County,
Missouri pursuant to Carr, supra, and Hart, supra.
III. This case is controlled by State ex rel. Carr
v. Wallace, No. SC93487
Jason Carr was convicted of three counts of
capital murder under section 565.001, RSMo 1978. 1
Carr, No. SC 93487, 2017 WL 2952314, at *1-2. At
the time of the offenses, Mr. Carr was 16 years old.
Id. Also at that time, capital murder could only be
punished by death or a life sentence without the
possibility of parole for 50 years. Section 565.008.1,
RSMo 1978. Id. The state did not seek the death
penalty. Id. Therefore, if convicted, the only eligible
sentence Mr. Carr could receive was life without the
possibility of parole for 50 years. 2 Id.
Under section 565.001, “[a]ny person who unlawfully,
willfully, knowingly, deliberately, and with premeditation kills
or causes the killing of another human being is guilty of the
offense of capital murder.”
2
At the time of Mr. Carr’s conviction, the alternative
punishment available under the capital murder status was life
without the possibility of parole for 50 years, thereby making it
the second harshest penalty that could be imposed on a
homicide offender. Section 565.008. Had the death penalty been
sought and imposed, this penalty would have been invalidated
following Rover v. Simmons, 543 U.S. 551, 578-79 (2005), which
1

157a
In 1983, a jury convicted Mr. Carr of three counts
of capital murder. Id. Following the jury’s verdict,
the trial court sentenced him to three concurrent
sentences of life imprisonment without the eligibility
for parole for 50 years. Id. The court of appeals
affirmed his convictions on direct appeal, and Mr.
Carr’s claim of ineffective assistance of counsel was
also denied. Id.
Mr. Carr filed a petition for a writ of habeas
corpus in the Supreme Court of Missouri after the
Supreme Court of the United States’ decision in
Miller. Mr. Carr contended that his sentences
violated the Eighth Amendment because, following
the decision in Miller, Juvenile offenders cannot be
sentenced to life without parole pursuant to
mandatory sentencing schemes that preclude
consideration of the offender’s youth and attendant
circumstances. Carr, 2017 WL 2952314, at *1-2.
While Mr. Carr’s habeas petition was pending,
the Supreme Court of the United States held that
Miller’s substantive rule must be applied
retroactively on collateral review of a juvenile
offender’s mandatory sentence of life without parole.
Montgomery, – U.S. –. 136 S.Ct. at 736. Although
prisoners are generally required to raise
constitutional claims on direct appeal or in postconviction proceeding, a defendant has cause for
failing to raise such claims where a new
constitutional rule may be applied retroactively on
collateral review. State ex rel. Simmons v. Roper, 112
S.W.3d 397, 401 (Mo. banc 2003).
held that the Eighth Amendment prohibits the imposition of
the death penalty on defendants who commit first degree
murder at age 17 or younger.

158a
Mr. Carr did not raise his Eighth Amendment
claims on direct review or in a post-conviction
proceeding. Nevertheless, the Supreme Court of
Missouri in Carr, following Montgomery, held that
because Mr. Carr was seeking retroactive application
of Miller’s substantive rule of constitutional law to
the facts and circumstances of his case, Mr. Carr had
cause for failing to previously raise his constitutional
claims, and he could seek habeas corpus relief on his
claims that his sentences were imposed in violation
of the Eighth Amendment pursuant to Miller. Carr,
2017 WL 2952314, at *3.
Ultimately, the Supreme Court of Missouri held
that Miller controlled because Mr. Carr was
sentenced to the harshest penalty other than death
available under mandatory sentencing scheme that
afforded the sentencer no opportunity to consider his
age, maturity, limited control over his environment,
the transient characteristics attendant to youth, or
his capacity for rehabilitation. Id. at *1-2, 4. As a
result, Mr. Carr’s sentences were imposed in direct
contravention of the foundation principal that
imposition of a state’s most severe penalties on
juvenile offenders cannot proceed as though they
were not children. Id.
Consequently, the Court held that Mr. Carr’s
sentences of life without the possibility for 50 years
violated the Eighth Amendment, and that he must
be resentenced so his youth and other attendant
circumstances surrounding his offense can be taken
into consideration to ensure he will not be forced to
serve a disproportionate sentence in violation of the
Eighth Amendment. Id. The Court granted habeas
relief. Id.

159a
In doing so, the Court ordered that Mr. Carr must
be resentenced under the procedures set out in Hart.
Id. at *5. First, the sentencer must consider whether
Mr. Carr’s sentences of life without the possibility of
parole for 50 years are just and appropriate
considering his youth, maturity, and other Miller
factors. Carr, 2017 WL 2952314, at *5. If Mr. Carr
elects to have a jury resentence him, the jury must
be instructed properly that it may not assess and
declare his punishment for capital murder should be
life without the possibility of parole for 50 years
unless it is persuaded beyond a reasonable doubt
that this sentence is just and appropriate under all
the circumstances. Id. The jury must also be
instructed, before it begins its deliberations, that if it
is not persuaded that life without parole for 50 years
is a just and appropriate sentence under all the
circumstances of the case, additional instructions
concerning applicable punishments will be given at
that time. Id.
If, after considering all the circumstances, the
sentencer finds Mr. Carr qualifies for life without the
possibility of parole for 50 years, then that is the only
authorized statutory sentence. Id. at *6. If, however,
the sentencer is not persuaded that this sentence is
just and appropriate, Mr. Carr cannot receive that
sentence. Instead, the trial court must declare
section 565.008 void as applied to Mr. Carr on the
ground that it does not provide a constitutionally
valid punishment for his offense. Id.
If section 565.008 is void, the trial court must
vacate the jury’s verdict finding Mr. Carr guilty of
capital murder and enter a new finding that he is
guilty of murder in the second degree under section

160a
565.004. Id. After the trial court enters the finding
that Mr. Carr is guilty of murder in the second
degree, the sentencer must determine his sentence
based on the statutory range applicable to these
offenses. Id. Under section 565.008.2, “[p]ersons
convicted of murder in the second degree shall be
punished by imprisonment by the division of
corrections for a term of not less than ten years.” If
Mr. Carr elects to have a jury resentence him, the
jury will be provided with additional instructions
regarding sentencing for murder in the second
degree. Id. These additional instructions should not
be submitted to the sentencer–unless and until the
sentencer has deliberated and rejected sentencing
the juvenile offender to life without the possibility of
parole for 50 years for capital murder. Id. Mr. Carr
would then be resentenced for second degree murder
within the statutorily authorized range of
punishments for that offense. Id.
Petitioner’s case is controlled by Carr. Petitioner,
like Mr. Carr, was sixteen years old at the time the
capital murder was committed.
For the capital murder offense, Petitioner, like
Mr. Carr, was sentenced to the harshest penalty
other than death available under a mandatory
sentencing scheme that afforded the sentencer no
opportunity to consider his age, maturity, limited
control over his environment, the transient
characteristics attended to youth, or his capacity for
rehabilitation.
Petitioner, like Mr. Carr, is entitled to habeas
corpus relief, and he must be resentenced so his
youth
and
other
attendant
circumstances

161a
surrounding his offense can be taken into
consideration to ensure he will not be forced to serve
a disproportionate sentence in violation of the Eighth
Amendment.
If, after considering all the circumstances, the
sentencer is not persuaded that a sentence of life
without the possibility of parole for 50 years is just
and appropriate, Petitioner cannot receive that
sentence. Instead, the trial court must declare
section 565.008 void as applied to Petitioner’s on the
ground that it does not provide a constitutionally
valid punishment for his offense. If section 565.008 is
void, the trial court must vacate the jury’s verdict
finding Petitioner guilty of capital murder and enter
a new finding that his is guilty of murder in the
second degree under section 565.004. After the court
enters the finding that Petitioner is guilty of murder
in the second degree, the sentencer must determine
his sentence based on the statutory range applicable
to this offense, which under section 565.008.2 RSMo
1978, is “imprisonment by the division of corrections
for a term of not less than ten years.”
Additionally, if, on remand, the trial court is
required to vacate the sentencer’s verdict that
Petitioner is guilty of first-degree murder on the
ground that section 565.020 is void, the trial court
also must vacate the jury’s finding that Petitioner
was guilty of the armed criminal action charge
predicated on his being found guilty of first-degree
murder. State v. Nathan, 404 S.W.3d 253, 271, n. 11
(Mo. banc 2013). The trial court then must enter a
new finding that Petitioner is guilty of armed
criminal action in connection with his guilt on the
second-degree murder charge. Id. Petitioner then

162a
will be sentenced for the new armed criminal action
charge at the same time and in the same manner as
he is sentenced for the new second-degree murder
charge. Id.
IV. Conclusion
WHEREFORE, for all the foregoing reasons,
Petitioner respectfully request that this Court
require Respondent to show cause as to why habeas
relief should not be granted and thereafter, after a
through review of the facts and law, enter an order
granting a writ of habeas corpus vacating
Petitioner’s conviction and sentence for capital
murder and remand the case for resentencing in
Jackson County, Missouri, under Carr, supra, and
Hart supra, and grant such other and further relief
that the Court deems fair and just under the
circumstances. See, Edwards v. Steele, supra (habeas
relief granted, and Petitioner is entitled to be
resentenced in accordance with the procedure outline
in Carr and Hart.)

163a
Respectfully submitted,
/s/ Craig A. Johnston
Craig A. Johnston, MOBar # 32191
Assistant State Public Defender
Woodrail Centre
1000 West Nifong
Building 7, Suite 100
Columbia, Missouri 65203
(573) 777-9977 (telephone)
(573) 777-9963 (facsimile)
Email: Craig.Johnston@mspd.mo.gov
CERTIFICATE OF SERVICE
I hereby certify that on this 9th day of November,
2017, this petition was electronically filed via
case.net through the Missouri e-Filing System and a
true and correct copy was mailed to the Office of the
Attorney General, 207 W. High Street, P.O. Box 899,
Jefferson City, Missouri 65012.
/s/ Craig A. Johnston
Craig A. Johnston, MOBar #32191

